<html>
<title> - H.R. 2771, TO AMEND THE SAFE DRINKING WATER ACT TO REAUTHORIZE THE NEW YORK CITY WATERSHED PROTECTION PROGRAM</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



H.R. 2771, TO AMEND THE SAFE DRINKING WATER ACT TO REAUTHORIZE THE NEW 
                 YORK CITY WATERSHED PROTECTION PROGRAM

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2004

                               __________

                           Serial No. 108-72

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

93-305              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  

                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Environment and Hazardous Materials

                    PAUL E. GILLMOR, Ohio, Chairman

RALPH M. HALL, Texas                 HILDA L. SOLIS, California
JAMES C. GREENWOOD, Pennsylvania       Ranking Member
HEATHER WILSON, New Mexico           FRANK PALLONE, Jr., New Jersey
VITO FOSSELLA, New York              ALBERT R. WYNN, Maryland
  (Vice Chairman)                    LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        TOM ALLEN, Maine
CHARLES F. BASS, New Hampshire       JANICE D. SCHAKOWSKY, Illinois
JOSEPH R. PITTS, Pennsylvania        CHARLES A. GONZALEZ, Texas
MARY BONO, California                PETER DEUTSCH, Florida
LEE TERRY, Nebraska                  BOBBY L. RUSH, Illinois
MIKE ROGERS, Michigan                BART STUPAK, Michigan
DARRELL E. ISSA, California          GENE GREEN, Texas
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Crotty, Erin M., Commissioner, New York State Department of 
      Environmental Conservation.................................    25
    Kelly, Hon. Sue W., a Representative in Congress from the 
      State of New York..........................................    16
    Mugdan, Walter, Director, Division of Environmental Planning 
      and Protection, U.S. Environmental Protection Agency, 
      Region.....................................................    19
    Olson, Erik D., Senior Attorney, Natural Resources Defense 
      Counsel....................................................    32
    Rosa, Alan, Executive Director, Catskill Watershed 
      Corporation................................................    29
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York..........................................    15

                                 (iii)

  

 
H.R. 2771, TO AMEND THE SAFE DRINKING WATER ACT TO REAUTHORIZE THE NEW 
                 YORK CITY WATERSHED PROTECTION PROGRAM

                              ----------                              


                         FRIDAY, APRIL 2, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                        Subcommittee on Environment and    
                                       Hazardous Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:37 a.m., in 
room 2123, Rayburn House Office Building, Hon. Paul E. Gillmor 
(chairman) presiding.
    Members present: Representatives Gillmor, Fossella, Buyer, 
Pitts, Bono, Terry, Rogers, Issa, Otter, Sullivan, Barton (ex 
officio), Solis, Pallone, Wynn, Capps, Schakowsky, Gonzalez, 
Rush, Stupak, and Green.
    Staff present: Jim Barnette, general counsel; Mark Menezes, 
majority counsel; Jerry Couri, policy coordinator; Bob Meyers, 
majority counsel; Robert Simison, chief clerk; William Carty, 
legislative clerk; Billy Harvard, legislative clerk; Michael 
Abraham, legislative clerk; Richard Frandsen, minority counsel; 
and Sharon Davis, minority clerk.
    Mr. Gillmor. The subcommittee will now come to order. Today 
our committee will be addressing legislation to reauthorize the 
New York City Watershed Protection Program within the Safe 
Drinking Water Act. This is bipartisan legislation, 28 co-
sponsors including Mr. Fossella, our subcommittee vice 
chairman, and Mr. Towns and Mr. Engel, both members of our full 
committee.
    The New York City watershed covers an area of almost 1,900 
square miles in the Catskill Mountains and the Hudson River 
Valley. The watershed is divided into two reservoir systems, 
the Catskill/Delaware watershed and the Croton watershed. 
Together these two reservoir systems deliver approximately 1.4 
billion gallons of water each day to nearly 9 million people to 
metropolitan New York City. In December 1993, the EPA concluded 
that New York City was able to avoid filtration of its drinking 
water and assigned New York over 150 conditions relating to 
watershed protection monitoring and studies.
    Unfortunately, New York City met several key roadblocks to 
implementation of these requirements, including being able to 
obtain either a land acquisition permit or approval of revised 
watershed regulations from the State of New York. Congress 
addressed this matter in section 128 of the Safe Drinking Water 
Amendments of 1996 when the New York City Watershed Protection 
Program was first enacted. This program authorized $15 million 
per year from fiscal years 1997 to 2003, for EPA to provide 50 
percent matching grants to the State of New York for approved 
demonstration grants projects that were part of New York's 
Watershed and Source Water Protection Program.
    In practice, this has been a successful program. It has 
saved the economic viability and the environmental quality of 
upstate New York communities in the watershed region, while 
also saving American taxpayers millions of dollars that would 
otherwise be necessary to build water filtration systems.
    Of note, EPA Administrator Levitt testified last week that 
one way to reduce the financial needs of drinking water 
delivery systems is to encourage more conservation efforts, and 
I believe programs like the New York City watershed are good 
examples of public and private partnerships paying 
environmental and economic dividends.
    Our subcommittee faces a simple question: Should we as 
Congress provide legal authority for the Federal Government to 
assist this watershed? I believe we should support H.R. 2771. 
It is a simple bill that extends authorization of the New York 
City watershed until 2010. Let us take a step forward toward 
bipartisan protection of the environment in general and New 
York's source water in particular, and I would urge all members 
to vote favorably on recommending this bill to the full 
committee.
    Before closing my remarks and recognizing the gentlewoman 
from California for the purpose of an opening statement so we 
can go to the first panel of our distinguished colleagues, let 
me speak briefly about future activities for our subcommittee. 
I continue to look for places where our committee has both 
institutional reasons to get involved and a majority of our 
members supporting a particular decision. Today I am noticing a 
joint hearing for April 21 on the Defense Department's 
proposals impacting Superfund, RCRA, and the Safe Drinking 
Water Act.
    This spring I also hope to engage in oversight of our 
Nation's brownfields law and the financial needs of the 
Drinking Water State Revolving Fund as well as our Nation's 
bioterrorism laws as they relate to drinking water. There may 
be other items; but time, resources, and abilities for success 
will guide those decisions.
    At this time I would like to recognize the ranking member 
of our subcommittee, Ms. Solis from California.
    Ms. Solis. Mr. Chairman, just a point of clarification. Is 
it my understanding that my colleagues will have an opportunity 
to make an opening statement before we hear the first panel?
    Mr. Gillmor. Yes.
    Ms. Solis. Thank you. With that, I want to say thank you 
and welcome to the witnesses here.
    I have to tell you that I am very surprised that after 
going almost nearly 9 months without a hearing in the 
subcommittee, that the program we will discuss today is the 
reauthorization of the New York City Watershed Protection 
Program. With the more than 13 other core programs of the Safe 
Drinking Water Act that expired in 2003, programs like the 
State Revolving Loan Fund that pays for upgrades in our 
Nation's severely deteriorated water infrastructure, I have to 
say I am baffled as to why this subcommittee has chosen this 
program above all others to reauthorize.
    Certainly I am not opposed to the demonstration projects 
for monitoring New York's watershed. In fact, I am a proponent 
of that. I think that is something that is very, very 
important.
    It seems odd to me that we take this opportunity when there 
is so much that can be addressed in the Safe Drinking Water Act 
itself. The subcommittee picked out of the 7-year 
reauthorization, a small demonstration program that neither 
President Bush nor President Clinton ever requested funding for 
in any of their budget proposals. So let us be clear: The 
funding for the program is certainly not in jeopardy. Last year 
it received $5 million from the Committee on Appropriations, so 
I am wondering why the subcommittee is not holding a hearing 
about programs that are truly in jeopardy.
    The reauthorization of the State Revolving Loan Fund, which 
funds critical water infrastructure and compliance needs 
throughout the country, expired in 2003. President Bush's 
budget requested only $850 million for that program, $150 
million less than the authorized level. And the EPA itself says 
that $102 billion in additional funding for water utilities 
just to maintain compliance with the Safe Drinking Water Act 
still is not authorized.
    Every Democrat on this subcommittee, Mr. Chairman, sent a 
letter to you in February asking for a hearing on the 
President's proposed EPA budget so we can fulfill our 
congressional oversight responsibility of this subcommittee. We 
have not received a response and I am not aware of any hearing 
that is planned.
    Every day we open the newspaper, in fact today in the 
Washington Post there is another article about the problems 
here in Washington, DC. With lead--lead being found in our 
drinking water here. The matter calls out for corrective 
legislation and is squarely within the jurisdiction of this 
subcommittee.
    There is bipartisan legislation also pending in the 
Congress that would create an ombudsman at EPA to help local 
communities work with the Federal Government when they face 
environmental problems, but this subcommittee is not holding a 
hearing on that legislation.
    So here we are, taking on one provision out of the entire 
Safe Drinking Water Act, and holding a hearing. And I think an 
important topic of discussion today would be to find out why 
the Bush administration has declined to request funding for 
this particular project. We have asked the majority to provide 
a witness who could knowledgeably answer the question. I hope 
we can hear from someone today.
    In summary, I wish to reiterate my concerns with the 
decision to focus today's hearing on this very small provision 
and ignore the pressing safe drinking water needs facing the 
entire country.
    I yield back the balance of my time.
    Mr. Gillmor. Let me respond briefly to a couple of points 
to the gentlewoman. We have had three Cabinet secretaries in, 
testifying before the Committee on the Budget. And, I also 
point out, regarding the lead in the drinking water, I have 
sent letters to EPA, the General Accounting Office and to DC. 
To begin the process of looking at that. We have been contacted 
by GAO. They are starting that, and when we get answers from 
them, then we will be in a position to have the information to 
decide how to proceed.
    The gentleman from New York, Mr. Fossella, vice chairman of 
the subcommittee is recognized.
    Mr. Fossella. Mr. Chairman, thank you for holding this 
hearing and markup on this bipartisan bill.
    Let me note, to underscore the bipartisan nature of this 
bill, that every member of the New York State delegation, 
Democrats and Republicans, are co-sponsors. I think that 
indicates not just the importance of it to New York State and 
the country, but the strong popularity on both sides of the 
aisle. And obviously we are here to reauthorize the New York 
Watershed Protection Program. And I want to thank the 
witnesses, my colleagues Mr. Towns and Mrs. Kelly, for coming 
forward, as well as the witnesses that will come after.
    Passing this bill will ensure the continued protection of 
our Nation's largest and most pure source of drinking water. 
The hearing and markup represents a major step forward in 
keeping the health of millions of New Yorkers safer for years 
to come. Along with your recent announcement about the 
subcommittee's investigation into lead in Washington, DC's 
water supply, your willingness to move this important piece of 
legislation is just another example of your commitment toward 
improving drinking water quality nationwide. I cannot thank you 
enough for these efforts and I believe the people of New York 
will say the same.
    ``The best way to assure the public of safe, healthy water 
is to protect the water at its source.'' These are the words of 
the Croton Watershed Clean Water Coalition President, Marian 
Rose. The statement is also the definitive purpose of the New 
York Watershed Protection Program. With a relatively small 
amount of Federal funding, New York City and State have been 
able to implement an unprecedented water monitoring and 
surveillance program for the 1,900 square mile New York City 
watershed region. This is the Nation's largest source of 
unfiltered drinking water. It is an area providing pristine 
water to 9 million residents in both New York City and upstate 
communities, representing over half the State's population.
    The landmark program is all made possible through the New 
York City Watershed Agreement; the historic accord resulting 
from the efforts of Governor George Pataki and his vision of 
bringing together environmental groups, New York city 
officials, upstate communities, and the United States 
Environmental Protection Agency in 1997. It allowed for the 
continued and long-term protection of New York City's drinking 
water, while safeguarding the economic viability and 
environmental quality of upstate communities in the watershed 
region. Note that the agreement also saves Federal and State 
taxpayers $8 billion that would be necessary to build water 
filtration systems in its absence.
    Congress recognized the need to fund the New York City 
Watershed Protection Program in the 1996 Safe Drinking Water 
Act Amendments. Since then, the watershed agreement has made 
unprecedented advances toward enhancing water quality in both 
New York and our country. The $15 million in Federal money 
authorized annually provides the seed money for groundbreaking 
programs and studies. These efforts can be used as a nationwide 
model to improve drinking water for all Americans.
    Some of the program's innovations improve breakthrough 
discoveries on the impacts of land use on drinking water, 
details on the effects of trace organics and metals, toxins, 
pesticides and nutrients in watersheds, and recognition of best 
management practices for storm water runoff. Other efforts 
include extensive education campaigns and public training on 
monitoring streams supplying drinking water.
    Building on this small base of Federal funding, the city 
and State of New York have shown a strong commitment toward 
implementation of the watershed agreement. To date, both have 
spent $1.6 billion on watershed programs. Unfortunately, 
authorization for Federal funding of the agreement expired 
September 30 of last year, leaving its future in jeopardy.
    H.R. 2771 solves this problem. By reauthorizing the program 
through 2010, enhancing the protection of New York City's water 
supply will continue, along with the development of watershed 
protection models benefiting all Americans. The goal is 
achieved without displacing upstate farmers and uprooting 
historic landmarks, scenarios that could be necessary if the 
program is replaced with filtration systems, not to mention, as 
I said, the $8 billion price tag.
    I ask my colleagues to protect New York City's drinking 
water, protect the watershed agreement's breakthough 
innovations, protect upstate farmers and communities. Pass H.R. 
2771.
    Let me also, Mr. Chairman, with unanimous consent submit 
for the record letters of support from environmental groups, 
many of the upstate towns and other officials in support of 
this program. And I take this time to thank the Commissioner, 
representing Governor Pataki, of the Department of 
Environmental Conservation, Erin Crotty, for coming down as 
well. I yield back.
    Mr. Gillmor. Without objection they will be entered in the 
record. Hearing none, it will be so ordered.
    [The information follows:]
                                                     March 29, 2004
Honorable Paul E. Gillmor, Chairman
Subcommittee on Environment and Hazardous Materials
Committee on Energy and Commerce
United States House of Representatives
2125 Rayburn House Office Building
Washington, D.C. 20515-6115
    Dear Congressman Gillmor: I am writing to express the strong 
support of Riverkeeper for H.R. 2771, introduced by Congressman Vito 
Fossella and 22 other members of the New York State House Delegation. 
This legislation will ensure the continuation of the monitoring and 
surveillance program currently under the jurisdiction of the United 
States Environmental Protection Agency (USEPA), which is necessary to 
ensure the continued protection of New York City's drinking water 
supply.
    In 1997, New York State, New York City, USEPA, upstate communities 
and environmental organizations including Riverkeeper joined together 
to sign an agreement to protect the unfiltered drinking water supply 
used by the nine million residents of New York City and upstate 
communities. This unfiltered drinking water supply is continuously 
threatened by the increasing numbers of people and associated 
development which have been drawn to the scenic and historic Catskill 
Mountain region, where the West of Hudson portion of the 2,000 square 
mile drinking water system is located. Since aggressive actions were 
taken to preserve the natural filtering of this water supply, to date 
water filtration has not been necessary for the Catskill and Delaware 
Watershed; filtration that would cost an estimated $8 billion. This 
action, while costly to the water consumers, also would not have helped 
to preserve the bucolic character of the Catskills. The historic and 
landmark 1997 Watershed agreement, bringing with it open space 
conservation and stronger land use controls, was both cost effective 
and environmentally protective. We believe that, if implemented 
effectively, this agreement is the best means to preserve the water 
supply, the upstate economy, and the environment of the Catskills. The 
many innovations stemming from the New York City watershed program are 
unquestionably beneficial on a national basis as well.
    Language was included in the Safe Drinking Water Act Amendments of 
1996 (P.L. 104-182) which authorized the United States Congress to 
provide USEPA with up to $15 million annually for seven years ``for 
demonstration projects implemented as part of the watershed program for 
the protection and enhancement of the quality of source waters of the 
New York City water supply system . . .'' As a result of this 
authorization, a total of $31 million has been provided and matched 
equally by recipients, for projects that have, among other programs:
 Evaluated the impacts of land use on the drinking water supply;
 Monitored nonpoint source pollution that could impact on the water 
        supply, so that it can be addressed effectively;
 Assessed the effects of trace organics and metals, toxics, pesticides 
        and nutrients in the watershed;
 Demonstrated which best management options were the most effective at 
        reducing phosphorus loading in runoff and storm water;
 Developed three-dimensional models of the Total Daily Loads to the 
        water supply;
 Created an integrated, watershed-wide monitoring program to address 
        source and ecosystem impairments;
 Mapped wetlands for potential acquisition; and
 Conducted extensive public education and outreach.
    Congressional authorization for these initiatives has expired, but 
the need for them has not. Through the efforts described above, as well 
as other initiatives, we are enhancing the protection of New York 
City's water supply while developing models of watershed protection 
that can easily be translated to other regions of the country. 
Accordingly, I am calling on you to reauthorize the SDWA program to 
allocate federal funds to the protection of New York City's watershed 
through the swift approval of H.R. 2771. The funds provided to date 
unquestionably have been an excellent investment in this unique 
unfiltered drinking water supply, and the continuation of this program 
is critical to providing these continued benefits, both to New York 
City and the Nation.
    I would be happy to discuss this issue with you or your staff. 
Please feel free to call me at 914-422-4343. Thank you in advance for 
your support of H.R. 2771.
            Sincerely,
                                     Robert F. Kennedy, Jr.
                                         Chief Prosecuting Attorney
                                 ______
                                 
                                                     March 31, 2004
The Honorable Paul E. Gillmor, Chairman
Subcommittee on Environment and Hazardous Materials
Committee on Energy and Commerce
United States House of Representatives
2125 Rayburn House Office Building
Washington, D.C. 20515-6115
    Dear Congressman Gillmor, I am writing to express my strong support 
for H.R. 2771, introduced by Congressman Vito Fossella and 22 other 
members of the New York State House Delegation. This legislation will 
ensure the continuation of the monitoring and surveillance program 
currently under the jurisdiction of the United States Environmental 
Protection Agency (USEPA), which is necessary to ensure the continued 
protection of New York City's drinking water supply.
    In 1997, New York State, New York City, USEPA, upstate communities 
and environmental organizations joined together to sign the historic 
Watershed Agreement to protect the unfiltered drinking water supply 
used by the nine million residents of New York City and upstate 
communities. This unfiltered drinking water supply is threatened by the 
increasing development in New York City's 2000 square-mile watershed 
that is situated both east and west of the Hudson.
    Since aggressive actions were taken to preserve and protect the 
natural filtering capabilities of this water supply, to date a chemical 
treatment/filtration plant has not been necessary for the Catskill and 
Delaware Watershed. Although a $1.5 billion chemical treatment/
filtration filtration plant has been ordered for the City's Croton 
System, this does not preclude the need for an equally strong 
protection program for the Croton Watershed. Indeed, the country's top 
experts in the field of water treatment will tell you that no modern 
plant is able to remove the multitude of pollutants that access the 
reservoirs from excessive development. The best way to assure the 
public of safe, healthy water is to protect the water at its source.
    Language was included in the Safe Drinking Water Act Amendments of 
1996 (P.L. 104-182), which authorized the United States Congress to 
provide USEPA with up to $15 million annually for seven years ``for 
demonstration projects implemented as part of the watershed program for 
the protection and enhancement of the quality of source waters of the 
New York City water supply system . . .'' As a result of this 
authorization, a total of $31 million has been provided and matched 
equally by recipients, for projects that have, among other programs:

 Evaluated the impacts of land use on the drinking water supply;
 Monitored nonpoint source pollution that could impact on the water 
        supply, so that it can be addressed effectively;
 Assessed the effects of trace organics and metals, toxics, pesticides 
        and nutrients in the watershed;
 Demonstrated which best management options were the most effective at 
        reducing phosphorus loading in runoff and storm water;
 Developed three-dimensional models of the Total Maximum Daily Loads 
        to the water supply;
 Created an integrated, watershed-wide monitoring program to address 
        source and ecosystem impairments;
 Mapped wetlands for potential acquisition; and
 Conducted extensive public education and outreach.
    Unfortunately, Congressional authorization for these initiatives 
has expired, but the need for them is greater than ever. From a 
personal point of view, I, together with my group (Croton Watershed 
Clean Water Coalition, Inc.), have greatly benefited from DEC's 
invaluable program through which they train volunteers on how to 
monitor streams and to produce scientifically acceptable reports on the 
quality of their waters. What we learned from this program cannot be 
measured in terms of the funds invested. It helped us understand the 
intricate system that protects the health of our streams, the 
reservoirs into which they flow and, ultimately our own health. We are 
deeply grateful to DEC, as I am sure many others are, for the time they 
spent in training us and for the generous use of their equipment. None 
of this would have been possible without the funds allocated by the 
USEPA. Those funds were put to good use.
    We urge you to support of H.R. 2771.
            Sincerely,
                                              Marian H. Rose, Ph.D.

    Mr. Gillmor. The gentleman from New Jersey.
    Mr. Pallone. Mr. Chairman, I would like to reinforce the 
issues raised by our ranking member, the gentlewoman from 
California. I am deeply disappointed with the lack of activity 
scheduled by the majority for this subcommittee, and 
furthermore the fact that when we are called to meet, we are 
discussing an issue that has such a small scope. While I do not 
oppose the particular project this bill addresses, I am very 
disturbed by the fact that the majority has placed this bill at 
the higher majority of the myriad of other important 
environmental issues that need our attention. The bill 
addressing drinking water concerns deals with only one regional 
area of the country.
    I would note that neither the Clinton nor Bush 
administration has ever requested funding for this program in 
their respective budget requests, yet New York has never been 
denied funding of this project by congressional appropriators. 
This is the first meeting of this subcommittee this session. In 
fact, this is the first time that this subcommittee has met in 
more than a year, and to authorize one section of the Safe 
Drinking Water Act at a time when the other 13 provisions in 
the Safe Drinking Water Act need to be reauthorized.
    Nearly 2 years ago, the subcommittee held oversight 
hearings on the state of drinking water needs and water 
infrastructure. We learned that communities across America are 
struggling with decaying and inadequate drinking water 
infrastructure and that capital costs alone will exceed $480 
billion over the next 20 years.
    This subcommittee could be meeting to help these 
communities by working to extend and expand the Drinking Water 
State Revolving Loan Fund. This fund expired last year in 
President Bush's fiscal year 2005 budget request. Only $850 
million toward the $102.3 billion additional funding needs for 
water utilities just to maintain compliance with the Safe 
Drinking Water Act, and this does not address replacing 
critical safe drinking water infrastructure.
    The subcommittee could also be meeting to fulfill its 
oversight responsibilities to examine President Bush's fiscal 
year 2005 budget request. Why hasn't the EPA Administrator, 
Mike Levitt, been in here to talk about the budget? It is 
amazing to me. I am disappointed with the majority's decision 
with regard to this subcommittee's activity. I can only hope 
that the majority is going to start doing something. I know 
that the chairman mentioned a couple of oversight hearings that 
he says he is now going to have. I hope they are held and they 
do not get canceled. Think about all the bills that need to be 
reauthorized: TSCA, RCRA, the Safe Drinking Water Act, or the 
Superfund. All of these have expired.
    You talk about in DC. We have a major lead problem with 
drinking water. The Committee on Government Reform has already 
had a hearing on this issue. We have not had anything. The same 
thing happened when I was the ranking member in the previous 
session, Mr. Chairman. We rarely met. We rarely did any 
oversight.
    When the Democrats were in the majority--and I have been 
here a few years so I remember--this was one of the most active 
committees. This is one of the reasons that I wanted to be on 
the full Commerce Committee, because of this subcommittee. But 
i just feel the majority is basically trying to hide the 
administration's record on environmental issues. Maybe that is 
why we never meet, because they do not want to dig into the 
fact that the administration is basically trying to destroy the 
environment. I do not know what other reason there is. But it 
has got to stop. Otherwise we have to keep raising this issue 
and not just have these hearings once every year.
    Thank you, Mr. Chairman.
    Mr. Gillmor. The gentleman from Indiana.
    Mr. Buyer. I was just so humored by the last statement, I 
just have no words to follow it.
    Mr. Gillmor. The gentleman yields back.
    Mr. Green. Can the gentleman turn his mike on so we can 
hear?
    Mr. Buyer. I said it is not worth responding to that, is 
what I meant, Mr. Green.
    Mr. Gillmor. The gentlewoman from California.
    Ms. Capps. Thank you, Mr. Chairman and welcome to our 
witnesses, our colleagues, Congresswoman Kelly and Congressman 
Towns.
    I appreciate your convening this hearing and markup on 
legislation to reauthorize New York City's Watershed Protection 
Program. First I will add that I also support the goal of this 
program. Ensuring safe drinking water is just about the most 
basic service the government does. The protection of public 
health and safety and the future of this watershed are of vital 
importance to the residents of New York, and there are quite a 
few of them. But every watershed is unique, with its own 
conditions, benefits, challenges and stakeholders. I hope 
today's hearing will be helpful in shedding light on what has 
been accomplished and if any further action on our part is 
needed.
    The legislation before us will reauthorize just one section 
of the Safe Drinking Water Act that expired in 2003, so I am 
hopeful that it is an indication that this subcommittee will 
also consider the 13 other important provisions of the act 
whose authorizations also expired in 2003. There are, of 
course, many significant issues relating to the act deserving 
of the subcommittee's attention; for example, the subcommittee 
should be taking action to ensure EPA sets a drinking water 
standard for perchlorate. I am very disappointed the 
subcommittee charged with protecting environmental health and 
safety has not yet discussed this increasingly prevalent and 
dangerous issues. There is a strong and growing body of 
evidence that perchlorate has become a serious concern to 
groundwater supplies, especially at and around military 
installations. In my congressional district and across America. 
We are witnessing the emergence of this dangerous contaminant. 
To date, EPA has reports of contamination in 18 States and has 
documented perchlorate manufacturers or users in 39 States.
    According to EPA's National Center for Environmental 
Assessment, only a small fraction of the perchlorate-using 
facilities have actually even been investigated. Its presence 
in soil, groundwater, and surface water pose serious health 
risks, particularly for newborn children and pregnant women. 
Perchlorate exposure has also been linked to physical and 
mental retardation and thyroid cancer.
    Unfortunately we have do not have enough information about 
exactly where this chemical has infiltrated, who is responsible 
for its clean up or just how dangerous it is to human health. I 
cite this because it is one example of some very much untended 
business that we need to get busy with. It is time we respond 
to this public health threat by allowing communities access to 
information and speeding up EPA perchlorate standards.
    I have legislation, the ``Preventing Perchlorate Pollution 
Act,'' which would accomplish these goals. Now that this 
chemical has entered the drinking water supply, it is very 
important that we address this situation swiftly. We cannot 
exacerbate the problem by ignoring contamination anymore.
    I stand ready, Mr. Chairman, to work with you and members 
of the subcommittee on this issue, and I appreciate the 
leadership of the ranking member on this topic. I am prepared 
to work with the subcommittee on reauthorizing this and other 
core provisions of the Safe Drinking Water Act to protect 
public health and the environment, but there is very much more 
work to be done as well.
    Again I thank our witnesses for being here and I yield 
back.
    Mr. Gillmor. Does the gentleman from Pennsylvania have an 
opening statement?
    Mr. Pitts. I will waive.
    Mr. Gillmor. The gentleman from Idaho.
    Mr. Otter. I will waive.
    Mr. Gillmor. And the gentleman from Oklahoma.
    Mr. Sullivan. I will waive.
    Mr. Gillmor. The gentleman from Texas.
    Mr. Gonzalez. Thank you, Mr. Chairman. I will be brief, 
being the newest member of the committee and subcommittee.
    I really thought a couple of things as my colleagues made 
their opening statements. My first observation is how 
privileged I am to be on this particular committee, and, in 
doing so, gladly actually gave up Financial Services, Small 
Business, and Homeland Security assignments, because it really 
is an incredible committee of which I am now a member. My 
concerns, of course, will be how much work will we be doing 
with this exclusive committee. Therefore, every one of my 
subcommittee assignments has been very important.
    I was told, and maybe incorrectly, because I heard someone 
from the other side dispute, I guess, the degree of inactivity 
of this subcommittee. And I am willing to be educated if in 
fact this committee has met on more occasions than it has been 
represented to me. It is my understanding that it has been 
somewhat a dormant committee, and I think it is important to 
the point that process is important in the legislative process. 
Process really does dictate and mandate hearings by the 
appropriate committees.
    I do not want to hold a piece of legislation hostage. I do 
not want to make it the poster child of some sort of protest. I 
would like to vote on the merits and the facts, and we will be 
doing that. Nevertheless, I think it is appropriate to point 
out the inactivity of the subcommittee and why something of 
this nature would rise to the point where it would merit this 
type of hearing, and we will do so because it is the 
appropriate committee of jurisdiction.
    Nevertheless, I will join my colleagues in their concerns 
about the degree of activity and hopefully that the rest of 
this year we will see this committee much more engaged, and we 
will have other matters that are important to this side of the 
committee brought to the attention and merit hearings and maybe 
even a markup or two. Thank you very much.
    Mr. Gillmor. The gentleman yields back. Also we would like 
to welcome the gentleman to both the full committee and to the 
subcommittee. We look forward to working with you.
    Does the gentleman from Nebraska have an opening statement?
    Mr. Terry. No.
    Mr. Gillmor. The gentlewoman from Illinois.
    Ms. Schakowsky. Mr. Chairman, this subcommittee meeting 
reminds me a lot of what some people say about their high 
school reunion. It was a long time coming, and disappointing 
once it finally arrived. The inactivity of the subcommittee is 
especially troubling, given the pressing problems that we could 
and should be addressing. I agree fully with the chairman that 
we should be working in a bipartisan way to address the issues 
of the environment, and, for example, the issue of the lead in 
the water, in the drinking water. But with all due respect, Mr. 
Chairman, your writing a letter is not the same as having a 
public hearing on this matter so that we can all address the 
subject together. We could be using our time this morning to 
handle our duty to provide institutional oversight by holding a 
hearing with Administrator Levitt on the EPA's budget.
    My constituents, many of whom are avid environmentalists, 
really want to know why the administration's budget slashes 7 
percent of the EPA's funding for fiscal year 2005, and how the 
administration expects the EPA to be able to enforce our 
environmental laws when the Bush budget will result in about 
5,000 fewer inspections than conducted in fiscal 2000, and why 
the budget continues to underfund brownfields when already less 
than 1 in 3 applicants can get help to clean up old sites for 
economic development and reuse.
    We could be acting on Mr. Bilirakis' Omnibus 
Reauthorization Act. The bill which has already passed the 
Senate has bipartisan support and is cosponsored by several 
members of this committee, including me.
    We could be taking up any of the other 13 provisions of the 
Safe Drinking Water Act that expired in 2003.
    If it is so important to reauthorize expired provisions of 
the act, then I find it especially troubling that we are not 
taking up the section authorizing the Drinking Water State 
Revolving Loan Fund. Sewers in my home State of Illinois 
desperately need additional assistance from this program so 
that the health of my constituents are better protected.
    It seems to me, Mr. Chairman--and I mean absolutely no 
disrespect to my colleagues who are clearly here on behalf of 
their constituents and I look forward to hearing their 
testimony--that this is such an important committee hearing. 
This is our first markup in this entire session of Congress, 
and I know for my constituents environmental concerns are 
really at the top of the list. They are very concerned about it 
and are very pleased that I am on this subcommittee as well.
    I congratulate our ranking member for raising the concern 
that we should be diligently doing our job to address the 
myriad of concerns that effect so many of the people in our 
districts and around the country. Thank you.
    Mr. Gillmor. The gentleman from Michigan.
    Mr. Stupak. Thank you, Mr. Chairman for holding this 
hearing and thank you to the witnesses for coming today.
    While I certainly appreciate the fact that you have called 
upon the subcommittee to hold a hearing, the fact is this is 
the first hearing we have seen in almost 9 months and the first 
markup that has been held in this entire Congress. Even more 
disconcerting is that the legislation of choice is merely a 
grant provision that is specific to one State and is not 
included in the President's budget request this year, nor had 
it been included in any other year.
    I don't mean to belittle the significance of this bill, and 
I am pleased to help out my New York colleagues, but on this 
side of the aisle we are frustrated because this subcommittee 
has many priorities it continues to ignore. Where are the 
hearings and markups on the 13 other provisions of the Safe 
Drinking Water Act that expired in 2003? How about a markup on 
another critically important issue, the importation of Canada's 
trash into Michigan and other neighboring States like Ohio and 
Pennsylvania? Although a hearing was held in this subcommittee 
last July, it has since fallen by the wayside, with no movement 
by the chairman to mark up any of the 3 bills that have been 
introduced in this Congress by three members of the Committee 
on Energy and Commerce on this issue. One would direct the EPA 
to enforce an earlier agreement with Canada to stop the 
importation of municipal solid waste.
    This is just one of a long list of important environmental 
issues that have failed to be addressed by the subcommittee. I 
would be interested to know, Mr. Chairman, if you plan on 
holding a markup on legislation addressing the issue of out-of-
State trash importation in this Congress, or if I have to go 
back and tell my constituents in Michigan that they will have 
to continue to sit by while our State is being used as a 
dumping ground for other people's trash.
    Finally, Mr. Chairman, it is budget time. This subcommittee 
has failed to call the EPA Administrator to explain the 
administration's 2005 budget request. Yet a hearing on 
extending the reauthorization of one provision out of the 
entire Safe Drinking Water Act is requested and granted within 
72 hours. Again, I am pleased to help out my New York 
colleagues, but we need a little equity on this committee. I 
believe that this subcommittee is shirking its responsibility 
to address issues that protect the environment and public 
health. I yield back.
    Mr. Gillmor. The gentleman from Texas.
    Mr. Green. Thank you, Mr. Chairman.
    Like all of us, I want to welcome our New York colleagues 
to our subcommittee. It is good to have them before us.
    Like my colleagues, it is interesting that our subcommittee 
has met only for the third time in this Congress to consider 
only one section of the 14 sections of the Safe Water Drinking 
Act. In terms of funding, we are only talking about 
reauthorizing 1.2 percent of the act for only one region of the 
country. New Yorkers deserve clean water and so does everyone 
else, Texans, Indianans, and every resident of every State. I 
know all water authorities in districts in my area throughout 
Texas would welcome reauthorization of this State Revolving 
Loan Fund to provide similar stability that this provision 
would be for New York.
    Mr. Chairman, I would just ask--and I yield some time as I 
listen to the activities of our subcommittee--do you have a 
schedule for the markup on the remaining 14 sections of the 
Safe Drinking Water Act?
    Mr. Gillmor. To respond to the gentleman's questions, I did 
talk in my opening statement about some of the issues that we 
will be taking up, and I am not going to make any commitments I 
cannot keep, so I will not commit to any particular markup or 
any particular section, but we will be looking at a number of 
other matters.
    Mr. Green. Thank you, Mr. Chairman. I guess that is my 
concern. And I want to help the New Yorkers, but in all 
honesty, there are 14 sections of the Safe Drinking Water Act 
that, granted, we are receiving appropriations for, but I also 
know that in our system here that oftentimes if it is not 
authorized, the Committee on Appropriations will say, ``I'm 
sorry.'' so we could be in this position where only one section 
of the Safe Water Drinking Act has any appropriations, 1.2 
percent of the act.
    I want to help my colleagues, but also I think there are 49 
other States who would also like to see some of the funding 
authorized again so we could stabilize that. Again, we have 
drinking water problems not just in D.C, but all across the 
country. You have got us in a problem because I do not want to 
hurt my colleagues from New York, but, Mr. Chairman I have a 
whole bunch of folks who depend on that revolving fund for 
their own benefit in my State along with the other States.
    I would encourage you as strong as I can, if this bill goes 
out today, that we schedule a hearing on the other 14 sections 
so the rest of the country can enjoy the security of 
reauthorization. I yield back my time and ask my full statement 
be placed in the record.
    Mr. Gillmor. Without objection.
    The Chair would make just one point in further response to 
the gentleman.
    One of the factors that we look at in legislation is the 
likelihood that it is going to be a majority vote of this 
subcommittee and also the degree to which it has bipartisan 
support and does not become a partisan exercise.
    The gentleman from Illinois, did you have an opening 
statement.
    Mr. Stupak. Mr. Chairman on that point, could you move the 
trash bills, then? Mr. Greenwood has one, Mr. Dingell has one, 
Mr. Rogers has one, all on this committee. It is bipartisan. We 
want any one of those three to move. We had a hearing and that 
has been about it. And we need some direction from this 
Congress, because Ohio, Pennsylvania, Michigan, our hands are 
tied with Canadian trash coming in. So we really would like to 
mark up one of those pieces of legislation. Pick whichever one 
you want and let us have a markup.
    Mr. Gillmor. I do not want to get sidetracked from this 
hearing, but let me respond. As you know, I am one of those who 
supports interstate trash legislation, and our problem in the 
past has been getting the votes in a bipartisan manner on this 
subcommittee to move it. I am still working on that. I have had 
contact with the ranking member of the full committee. I am not 
going to make a commitment, but I certainly would like to see 
that happen. I share your desire in that respect, although I am 
sure my colleagues from New York on the next panel do not 
necessarily share that desire.
    Mr. Stupak. Even from New York, it goes down to New Jersey 
and Pennsylvania. Some of them are saying the trash from any 
State should be allowed in. We are not saying restrict it. 
Those three bills have flexibilities in there, but the States 
need some relief and they look to the Congress to do it because 
of the Supreme Court case on Dafter. We would like to have a 
hearing on it.
    If you need help going bipartisan, Mr. Dingell and I have 
been leading it on this side. We would be more than happy to 
help you get support for those bills. We just need some 
directing from the Chair and some nudging from the Chair to 
move those bills.
    Mr. Gillmor. I hope we will be seeing some more activity in 
that area.
    Does the distinguished chairman of the full committee have 
a statement?
    Chairman Barton. I sure do, Mr. Chairman. I apologize for 
being late. I had a flat tire, believe it or not. I am told 
everything is peace and harmony here, though, and we have it 
running like a top. Are we still in the opening statements?
    Mr. Gillmor. Yes, you are the last one.
    Chairman Barton. I am the last one? All right. According to 
what I have prepared, it says I am to thank you for calling 
this hearing and markup today. Thank you for that.
    I want to commend Mr. Fossella who does not appear to be 
here. He is here. He is acting as a staff person there in the 
back. I want to thank Mr. Fossella for his hard work.
    Developing water resource programs and a watershed basis 
makes good sense environmentally and financially. There are 
various approaches to the watersheds revolving throughout the 
country, and we need to recognize the value of these tools in 
solving tough problems.
    The New York City Watershed Program is an example of what 
happens when people work together, focus on flexible 
approaches, and use sound science. The watershed has alleviated 
the need for building new water treatment facilities as well as 
reducing the amount of chemical and other disinfectants that 
need to be added to drinking water treatment systems.
    The legislation before us today extends the fine work begun 
in New York in 1997. It encourages the kind of lasting 
watershed framework that moves beyond a simple structure and 
makes it a living part of a community.
    I want to thank Chairman Gillmor again. I want to applaud 
the members of the New York delegation whose strong 
bipartisan--and I would like to emphasize that--bipartisan 
cooperation have brought us this bill. I am pleased to lend my 
support to their efforts.
    Mr. Chairman, that is the prepared statement. I understand 
there may be a number of amendments that may be offered when we 
get to the markup. I hope we can handle those in an expeditious 
and fair fashion and move this bill so we can take it to full 
committee as soon as possible. I yield back the balance of my 
time.
    Mr. Gillmor. The gentleman from Illinois, Mr. Rush.
    Mr. Rush. I want to thank the chairman. I intend to be 
quite brief.
    I must say, Mr. Chairman, that I am indeed puzzled by this 
subcommittee's priorities. After years of inaction, this 
committee is choosing to hold a markup on a very obscure and 
narrow grant program under the Safe Drinking Water Act that 
only affects one State. Mr. Chairman, I must say that I have 
the utmost respect for the New York delegation, and I certainly 
have much respect for my very, very close friend, Mr. Towns, 
and I do not want to be in any way distractful or harmful to 
the pursuits of the New York delegation. But in fact we are 
doing this markup, engaging in this markup in the context of 
lead and perchlorate-infected drinking water, aging and 
decaying drinking water infrastructure, and other pressing 
issues that are under the jurisdiction of the subcommittee and 
that affects every State in the Nation, including my own State 
of Illinois.
    Mr. Chairman, I just believe that if we are going to be 
fair to the other citizens of this Nation, then we should bring 
forth appropriate legislation so that we can deal with the 
national issues that we are confronted with.
    Mr. Chairman, last, it is my hope that this markup is the 
beginning of some very, very serious work ahead that will 
address a whole host of pressing matters facing the American 
public. Mr. Chairman, I yield back the balance of my time.
    Mr. Gillmor. The gentleman yields back.
    Does the gentleman from Michigan have an opening statement? 
Mr. Rogers.
    Mr. Rogers. No. I will waive, Mr. Chairman.
    Mr. Gillmor. We have concluded opening statements and we 
can proceed to our distinguished panel. Let me start with the 
member of the full committee who is also a cosponsor of this 
legislation, Mr. Towns.

 STATEMENT OF HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Towns. Thank you very much, Chairman Gillmor and 
Ranking Member Solis, and all the members of the subcommittee. 
I am delighted to be here. And I guess I should open up with 
the journey of a thousand miles starts with a single step. So I 
think that New York is No. 1, and I hope that you will be able 
to make other steps later on.
    This legislation would reauthorize funding for the New York 
City Watershed Agreement, helping to ensure safe and healthy 
drinking water for the residents of New York. Mr. Chairman and 
members of the committee, this is a very, very important issue 
for all of us from New York. So I appreciate the subcommittee's 
attention to this matter.
    New York City's vast water supply provides 1.4 billion 
gallons of drinking water to more than 9 million New Yorkers 
each day, with nearly 90 percent of those consumers residing in 
New York City. To supply millions of people with safe clean 
water takes an extensive water supply. In fact, the supply 
consists of 19 reservoirs and a watershed that spans more than 
2,000 square miles. It covers 8 counties, 60 towns, and 11 
villages in the Catskill Mountain region and the Hudson River 
Valley in New York State.
    The effective protection of this essential natural resource 
is an enormous challenge. To protect this area, in 1997 
environmental groups came together, with New York City and 
State officials upstate and downstate, and the Federal 
Government to create the New York City Watershed Agreement. 
This historic accord guaranteed continued and long-term 
protection for New York City's drinking water while 
safeguarding the economic viability and environmental quality 
of upstate communities in the watershed. While the historic 
landmark watershed agreement laid the groundwork for protecting 
the largest unfiltered drinking water supply in the country, 
the watershed agreement could only be successful if an 
effective water quality monitoring and surveillance program was 
implemented.
    In 1996, Congress responded by authorizing $15 million 
annually for 7 years for projects under the watershed agreement 
to protect and enhance the water supply for New York City. 
Without the commitment of Federal funding, the watershed 
agreement could not have been signed or implemented. Over the 
past 7 years, Congress has appropriated $31 million to 
implement a comprehensive monitoring and surveillance program, 
matched equally by grant recipients. In fact, New York City and 
New York State have leveraged those Federal funds, committing 
over $1.6 billion--that is ``b'' as in boy--to protect the New 
York City drinking water supply.
    Unfortunately, authorization for Federal funding of the 
watershed agreement expired September 30, 2003, leaving its 
future in jeopardy.
    H.R. 2771 solves this problem. The bill reauthorizes the 
New York City Watershed Agreement at its current funding level 
through 2010. This initiative is crucial to maintaining the 
safety of the New York City water supply and the economic 
security of upstate communities. Without the success of the 
watershed agreement, New York City would have to construct a 
massive water filtration plant at a cost estimated between $6- 
and $8 billion.
    Mr. Chairman, while quick passage of this legislation is 
vital to the safety and security of New York City's water 
supply and jobs upstate, I would be remiss if I did not also 
acknowledge that I am aware that the members of the committee, 
including the ranking member, have raised some concerns and 
others have raised some concerns about other environmental 
issues. I am hopeful, Mr. Chairman, that the committee will 
also address these additional matters immediately after the 
recess.
    Finally, Mr. Chairman, given the broad bipartisan support 
within the New York delegation--every member of our delegation 
supports this--I would urge a favorable reporting of the bill 
to the subcommittee. And I look forward to working with the 
bill's sponsors, my colleague Mr. Fossella, of course, and 
others to make this a reality by getting it to the floor as 
soon as possible and I am saying to you at least before 
Memorial Day.
    On that note, I would like to say that being a part of the 
committee that has jurisdiction, I am also proud to serve on 
the committee and to say to my colleagues that I think one of 
the finest committees in the Congress is the Commerce 
Committee, and that I am so proud to be a part of it.
    I would also like to take this opportunity to welcome 
Congressman Gonzalez to the committee and to say to him that I 
look forward to working with him. And remember that this is the 
first step, and a lot of things have to happen.
    Mr. Gillmor. Thank you very much Mr. Towns.
    The distinguished gentlewoman from New York, also a co-
sponsor of this legislation, Mrs. Kelly.

  STATEMENT OF HON. SUE W. KELLY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mrs. Kelly. Thank you very much, Mr. Chairman. I want to 
thank you for giving me the opportunity to testify this morning 
in support of H.R. 2771. I appreciate the subcommittee's 
interest in the bill that I have worked with Mr. Fossella to 
advance. The enactment of this bill has significant 
implications for my district which is immediately north of New 
York City. I represent the Hudson valley region, and every drop 
of New York City's water flows through my district, which 
includes Westchester, Rockland, Orange, Dutchess and Putnam 
Counties.
    New York City's tap water has been called the champagne of 
drinking waters because of its exceptional purity. It is 
because of actions that take place in my district and other 
upstate counties that make this water supply so pure. We are 
very proud to partner with the city to protect its water supply 
in a way that helps preserve the character of the Hudson River 
Valley.
    Ever since the early 1900's when New York City constructed 
the Ashocan Reservoir in the Catskill Mountains, there were 
understandable differences of opinion that have surfaced in the 
effort to strike the balance between protecting the city's 
water and protecting thefreedom of our communities upstate 
which reside within the city's watershed. This tension has 
intensified in the early 1990's with the implementation of 
stricter national policies on water quality that has resulted 
in a lawsuit against New York City in 1994.
    The result of good faith negotiations was the Watershed 
Agreement Act of 1997. This was a landmark compromise that has 
brought together those who had long disagreed with the promise 
of unprecedented investment levels in infrastructure, land 
management, and other development programs. Through assistance 
provided under the watershed agreement, communities in my 
district have been able to develop plans which protect the 
watershed and help preserve the character of their community as 
well.
    The spirit of cooperation remains, but it is very fragile. 
Without the monitoring and surveillance program funded through 
the EPA, the agreement could very easily be jeopardized. 
Without the agreement and the critical assistance of the EPA, 
the balance we struck would be lost, thereby setting loose the 
establishing effect of regional discord and undermining local 
efforts to preserve their quality of life.
    There is a significant cost efficiency aspect to this 
agreement that needs to be considered as well. The cost of a 
plan to filter New York City's water supply if the 1997 
agreement falls apart has been estimated at $8 billion, and it 
could be more. We have made great progress since 1997, but more 
needs to be done. In fact, the EPA's midterm review stressed 
the importance of taking further actions to protect the Kensico 
Reservoir, which is immediately below my district, to ensure 
the quality of water that reaches the consumers. To do so will 
take more concerted efforts to acquire land and to protect the 
quality of all the lands in the upstate communities without 
disrupting the communities unduly.
    Despite some differences, the watershed agreement is an 
area of common ground. I thank this committee for considering 
the legislation that will allow this mutually beneficial 
process to continue, and I appreciate the remarks of both sides 
of the aisle in their support of this piece of legislation. 
Thank you very much for letting me appear.
    Mr. Gillmor. Thank you very much, Mrs. Kelly.
    We will now go to questions. I have just one, and that 
relates to the length of the reauthorization. The original act 
was authorized for 6 years and the bill that you have calls for 
7 years, which I do not have any problem with.
    There is a bill over on the Senate side, and I understand 
that the committee there only gave a 1-year reauthorization, 
and I am just interested from both of you in what is your 
feeling on the length of reauthorization. I do not have any 
problem going to 2010, but I think we may have an amendment on 
that subject.
    Mrs. Kelly. Mr. Chairman, this is a very, very significant 
and important piece of legislation, and it does need time, 
because what is involved is land acquisition and negotiations 
with the communities that have been deeply affected because 
their land was taken by the State right when the reservoir 
system was put in place. The communities now have been growing, 
things have been changing, and we know more about the need to 
support clean water locally.
    The other thing is the cost. Ed and I both know that a cost 
of $8 billion to build a filtration plant to the city is, 
frankly, enormous and something that the city may not be able 
to float without some help, so you will have another bill 
asking for some help there. We need the time and we need as 
much time as we can get to get this thing in place so the 
communities are comfortable and the city maintains the 
champagne of drinking waters in the United States.
    Mr. Towns. I would like to associate myself with the 
remarks made of my colleague, and add that I hope that the 
Senate will acquiesce to our bill.
    Mr. Gillmor. Thank you. Ms. Solis.
    Ms. Solis. Just to comment, a point of clarification. My 
understanding is that the funding request is actually for 
oversight monitoring, not for acquisition of land. So I wanted 
to ask you about that.
    Mrs. Kelly. I believe you are correct, but that oversight 
and monitoring is very important because there is a piece that 
has already been set aside for land acquisition by New York 
State itself. So that is the land acquisition. But these things 
have to work. As you know, anything in a community is a 
negotiated settlement, especially where this water is 
concerned.
    Ms. Solis. I, too, am aware that the bill in the Senate 
extends this program for a year. Thank you.
    Mr. Gillmor. Are there further questions of this panel? If 
there are not, thank you both very much.
    We will call our next panel: Mr. Walter Mugdan, the 
Director of the Division of Environmental Planning and 
Protection, New York; Erin Crotty, the Commissioner of the New 
York Department of Environmental Conservation; Alan Rosa, 
Executive Director of the Catskill Watershed Corporation; and 
Mr. Eric Olson, a senior attorney with the Natural Resources 
Defense Council.
    I will also let the panel know we have been informed that 
we will probably have a series of votes starting shortly, so we 
will try to get started and go as quickly as we can.
    Mr. Mugdan.

      STATEMENTS OF WALTER MUGDAN, DIRECTOR, DIVISION OF 
   ENVIRONMENTAL PLANNING AND PROTECTION, U.S. ENVIRONMENTAL 
PROTECTION AGENCY, REGION 2; ERIN M. CROTTY, COMMISSIONER, NEW 
YORK STATE DEPARTMENT OF ENVIRONMENTAL CONSERVATION; ALAN ROSA, 
EXECUTIVE DIRECTOR, CATSKILL WATERSHED CORPORATION; AND ERIK D. 
   OLSON, SENIOR ATTORNEY, NATURAL RESOURCES DEFENSE COUNSEL

    Mr. Mugdan. Good morning Mr. Chairman, members of the 
subcommittee. My name is Walter Mugdan. I am the Director of 
the Division of Environmental Planning and Protection in Region 
2 of the U.S. Environmental Protection Agency. I appreciate 
this opportunity to appear before you today to discuss EPA's 
role in protecting New York City's drinking water supply.
    As you have heard, New York City's drinking water system is 
the largest unfiltered system in the Nation. It supplies over 
1.3 billion gallons of high-quality drinking water to 9 million 
people daily. Ninety percent of that water comes from the 
Catskill/Delaware or Cat/Del watershed.
    Under the surface water treatment rule of the Safe Drinking 
Water Act, drinking water taken from surface water sources must 
be filtered to remove microbial contaminants. However, the law 
does allow EPA to grant a waiver from this requirement to water 
suppliers if they demonstrate that they have an effective 
watershed control program and that their water meets strict 
water quality standards.
    Working in close coordination with New York State, EPA 
issued New York City such a waiver called a Filtration 
Avoidance Determination, or FAD, in November 2002 for the water 
coming from the Cat/Del watershed. The current FAD follows and 
builds upon several previous filtration avoidance 
determinations by EPA during the past decade. The most recent 
of these was in 1997. The 1997 waiver was issued in conjunction 
with the precedent-setting Watershed Memorandum of Agreement, 
MOA, that you have heard about, which was signed by the city, 
the State, EPA, and the upstate watershed communities and a 
number of environmental groups. I note that Commissioner Crotty 
of New York State DEC was instrumental in the successful 
negotiation of that agreement.
    The 1997 FAD was a strong document. It embodied many 
programs agreed to by the stakeholders who signed the MOA; but 
our 2002 FAD, which was also developed in consultation with New 
York State, is by any measure significantly stronger. Virtually 
every protection and remediation program called for in the 1997 
FAD is being continued in the 2002 FAD, and a number of the 
programs have been significantly strengthened and expanded.
    To ensure that the city's water supply remains high quality 
in the future, the FAD requires New York City to carry out a 
wide range of watershed protection programs at an investment of 
over $1.2 billion. On the other hand, filtration of the Cat/Del 
watershed system would cost New York City between $6 and $8 
billion, plus an estimated $200 million a year in operation and 
maintenance costs. So the watershed protection program, even 
though it is expensive, is a considerable cost savings.
    As we have said, the city's Cat/Del system is by far the 
largest surface water supply system in the U.S. for which a 
filtration avoidance determination has been made. Successful 
implementation requires close cooperation with different levels 
of government as well as numerous nongovernmental stake 
holders. EPA works closely with the New York State Department 
of Environmental Conservation and the New York State Department 
of Health on all aspects of this program.
    Commissioner Crotty has dedicated a tremendous amount of 
her staff time and her own time to make sure that this program, 
which has received worldwide acclaim, continues to be 
successful. It includes a number of programs under the 
filtration avoidance determination such as upgrading of 
wastewater treatment plants, new wastewater infrastructure 
programs, a program to address how best to use agricultural 
lands, a community wastewater management program, a septic 
systems improvement and replacement program, a program to 
reduce turbidity in the Catskill area waterways, and the 
construction of a UV or ultraviolet disinfection facility that 
will provide an invaluable additional level of protection for 
the Cat/Del water supply system.
    In my written statement I have provided some additional 
information about these programs. I would like to take a moment 
to highlight one program of particular interest and importance, 
which is the land acquisition program that Congresswoman Kelly 
alluded to.
    Under this program which operates on a willing seller/
willing buyer basis, the city undertakes to acquire undeveloped 
land in the watershed. Over the past 6 years, the city has 
obtained or has under contract easements on or direct ownership 
of more than 52,000 acres obtained at a cost of $131 million. 
But it is not just the quantity that is important, it is the 
quality of the lands that are being acquired that makes for 
this program being successful. To date, over 70 percent of the 
acreage obtained is in what would be designated as high-
priority areas, including about 1,200 acres of wetlands.
    As the initial solicitation component of that program winds 
down, the city has begun to resolicit in high-priority areas. 
It is also working closely with local land trusts in order to 
close deals with landowners who might prefer to work through a 
third party. The city is more than a third of the way through 
this 15-year program which is the foundation of the city's 
protection program. EPA will continue to monitor the progress 
of that program very closely.
    EPA's 1997 FAD focused on the planning and the initiation 
of the various protection programs, and it required the city to 
report on the progress of those programs.
    By contrast, the 2002 FAD focuses on milestone dates for 
specific actions and has more focused results-oriented 
reporting requirements.
    Finally, the 2002 FAD places more emphasis on monitoring 
and program analysis. The bottom line is that the city has to 
have a comprehensive monitoring program in place that is 
adequate to gauge the success or the failure of the many 
Watershed Protection Programs that are in the FAD and in the 
watershed MOA.
    No matter how much monitoring takes place, unless the 
program is functionally connected to track the attainment of 
the objectives of the Watershed Protection Program, its 
adequacy and the adequacy of the city's watershed protection 
efforts will be difficult to evaluate.
    To that end, New York City, in consultation with EPA and 
the State of New York, redesigned its watershed monitoring 
program in 2003 to ensure that it is equipped to detect long-
term trends and that it is set up to evaluate the success of 
many of the programs that are now being implemented.
    Questions that the monitoring program are designed to 
answer include: What is working? What isn't? Are we getting the 
water quality benefits that we expect? And would a particular 
program work better in a particular basin?
    It is important to understand this is not a static program. 
It is constantly subject to review and evaluation, and we are 
going to continue to work with the city and the State to make 
modifications and enhancements as necessary.
    The scope of this monitoring program is enormous. There is 
a huge number of data points being collected. In the 2002 FAD--
--
    Mr. Gillmor. Could I ask you, Mr. Mugdan, if you could wrap 
up? We are trying to stick as close as we can to our 5-minute-
limit, although your entire statement will be entered into the 
record.
    Mr. Mugdan. Let me wrap up, if I may. EPA works closely 
with New York State DEC to define the monitoring components of 
the city's Watershed Protection Program and to optimize the 
expenditure of available Safe Drinking Water Act funds. It is 
through these collaborative efforts that we determine whether 
modifications to and additional resources for the city's 
monitoring program are necessary to meet the long-term 
objectives of the filtration avoidance determination.
    If through this process we conclude that such modifications 
or additional resources are necessary to meet these objectives, 
we will require their deployment as a condition of continued 
filtration avoidance.
    As you know, Congress authorized, through Section 1443 of 
the act, $15 million to be appropriated to the EPA for each of 
the fiscal years 1997 through 2003 for the purpose of providing 
assistance to the State to carry out watershed monitoring 
programs in support of the city's efforts. Under this 
authorization Congress has appropriated $30.3 million through 
fiscal year 2003.
    All of these funds have supported monitoring programs that 
enhance the city's ability to comply with the FAD. And our 
objective and that of the State is to ensure the protection of 
the drinking water supply for 9 million people, and that is 
what we will continue to do.
    Thank you very much.
    [The prepared statement of Walter Mugdan follows:]

      Prepared Statement of Walter Mugdan, Director, Division of 
 Environmental Planning and Protection, U.S. Environmental Protection 
                            Agency, Region 2

    Good morning Mr. Chairman and Members of the Subcommittee. I am 
Walter Mugdan, Director of the Division of Environmental Planning and 
Protection in Region 2 of the U.S. Environmental Protection Agency 
(EPA). I appreciate this opportunity to appear before you to discuss 
EPA's role in protecting New York City's drinking water supply.
    New York City's drinking water system is the largest unfiltered 
system in the nation, supplying 1.3 billion gallons of high quality 
drinking water to 9 million people daily. 90% of the water comes from a 
1600 sq. mile area in the Catskill Mountains known as the Catskill/
Delaware (Cat/Del) watershed. Drinking water taken from surface water 
sources must, under the Surface Water Treatment Rule of the Safe 
Drinking Water Act (SDWA), be filtered to remove microbial 
contaminants. The law allows EPA to grant a waiver from this 
requirement to water suppliers if they demonstrate that they have an 
effective watershed control program and that their water meets strict 
quality standards. Working in close coordination with New York State, 
EPA issued New York City such a waiver, called a Filtration Avoidance 
Determination (FAD), in November 2002 for water coming from the Cat/Del 
watershed.
    The current FAD follows and builds upon several previous filtration 
avoidance determinations by EPA during the past decade. The most recent 
of these was in 1997. The 1997 waiver was issued in conjunction with 
the precedent-setting New York City Watershed Memorandum of Agreement 
(MOA) signed by the City, New York State, EPA, the upstate watershed 
communities, and a number of environmental groups. I must note that 
Commissioner Crotty was instrumental in the successful negotiation of 
that Agreement. The 1997 FAD was a strong document, which embodied 
programs agreed to by the many stakeholders who signed the Watershed 
MOA. Our 2002 FAD, which was also developed in consultation with New 
York State, is, by any measure, significantly stronger. Virtually every 
protection and remediation program called for in the 1997 FAD is being 
continued, with the City providing the funding necessary to meet the 
many specific milestones in the 2002 FAD; and a number of the programs 
are being significantly expanded.
    To ensure that the City's water supply remains high quality in the 
future, the FAD requires New York City to carry out a wide range of 
watershed protection programs, at an investment of approximately $1.2 
billion. Filtration of the Cat/Del system would have cost New York City 
$6-$8 billion, plus an estimated $200 million a year in operation and 
maintenance. Thus, the watershed protection program, while expensive, 
is a considerable cost savings. New York City's Cat/Del system is by 
far the largest surface water supply system in the United States for 
which a Filtration Avoidance Determination has been made.
    Successful implementation requires close cooperation with different 
levels of government as well as numerous non-governmental stakeholders. 
EPA works closely with the New York State Department of Environmental 
Conservation and the New York State Department of Health on all aspects 
of the program. Commissioner Crotty has dedicated a tremendous amount 
of her staff's time, and her own time, to make sure that this program, 
which has received world-wide acclaim, continues to be successful.
    I would like to go over the status of a few of the programs that 
are required under EPA's Filtration Avoidance Determination:

 Wastewater Treatment Plant Upgrade Program. At a cost of over $200 
        million, the City is funding the upgrade of all City- and non 
        City-owned wastewater treatment plants that discharge into 
        surface water in the watershed to state-of-the-art (tertiary 
        treatment) technology. To date, over 90% of wasteflow in the 
        Cat/Del watershed is subject to advanced tertiary treatment. We 
        anticipate all plants will be operational by the end of 2004.
 Land Acquisition Program. Under this program, the City will continue 
        to solicit for the acquisition of land, either to acquire it 
        outright or to acquire conservation easements which restrict 
        development that could threaten water quality. The program, as 
        laid out in the 1997 FAD and the Watershed MOA, sets a detailed 
        schedule for such solicitations, and is based on a ``willing 
        seller'' philosophy. Over the past six years, since 1997, the 
        City has obtained or has under contract, easements or direct 
        ownership over 52,000 acres, obtained at a cost of $131 
        million. Moreover, it is not just quantity that is important, 
        it is the quality of the land being acquired that makes for a 
        successful program. To date, over 70% of the acreage obtained 
        is in high priority areas, including about 1,200 acres of 
        wetlands. As the initial solicitation component of the program 
        winds down, the City has begun to re-solicit in high priority 
        areas. It is also working closely with local land trusts in 
        order to close deals with landowners who might prefer to work 
        through a third party. The City is more than one third of the 
        way through a 15- year program. This is the foundation of the 
        City's watershed protection program, and we will monitor its 
        progress very closely.
 Stream management program. This program is intended to address 
        pervasive stream degradation that has contributed to erosion 
        and the loss of riparian buffers. The FAD contains milestones 
        for 10 large restoration projects through 2007, plus the 
        completion of 9 stream management plans. The management plans 
        are important as they will lay the groundwork for future 
        restoration and stream buffer protection projects. These are 
        expensive, resource-intensive efforts, and the City has 
        committed itself to work on these in close cooperation with 
        local Soil and Water Conservation districts, County planning 
        agencies and other watershed partners.
 Agricultural program. The objective of the Watershed Agricultural 
        Program is to prevent pollution and improve water quality by 
        identifying and implementing structural changes and best 
        management practices in order to minimize pollutants from farms 
        reaching the streams that feed the City's reservoirs. Over 95% 
        of the large farms in the watershed are enrolled in this 
        voluntary program. Run by farmers (through the non-profit 
        Watershed Agricultural Council) and funded by the City, this 
        program provides financial and technical assistance to farmers. 
        To date, over 2,500 actions have been implemented using best 
        management practices at a cost of $18.6 million. Under the 2002 
        FAD this program was expanded to address small farms in the 
        watershed.
    The Watershed Agricultural Council, with funding from New York City 
and the USDA Farm Service Agency, is also instituting the Conservation 
Reserve Enhancement Program in the watershed. This is a voluntary 
program that protects streamside land by taking it out of production 
and placing it in vegetative buffers for 10 to 15 years. To date, 376 
stream miles have been protected with active riparian buffers.

 New wastewater infrastructure program. The City is well on its way to 
        completing new advanced wastewater treatment facilities in all 
        7 high priority towns in the Catskills. Completion of the first 
        5 facilities is expected in 2004. The remaining two are 
        expected to go online in 2006.
 Community wastewater management program. The 2002 FAD includes a 
        commitment by the City to implement, through the Catskill 
        Watershed Corporation, a new program to address wastewater 
        problems in five additional small Catskill towns. These towns 
        currently rely on septic systems, many of which are or may soon 
        be failing. There are FAD milestones for the design and 
        construction of necessary wastewater treatment improvements.
    These and other infrastructure programs focus on population centers 
where centralized wastewater treatment looks to be a better option than 
individual septic systems. These combined programs will end the 
discharge of approximately 2,700 marginal septic systems, or over 1.1 
million gallons per day of effluent, into the watershed. For those 
septic systems that are amenable to repair or replacement and are found 
to be failing, there is the Septic program.

 Septic program. This is a City-funded program that is also being 
        implemented by the Catskill Watershed Corporation. Over 1,800 
        septic systems have been repaired or replaced to date. The 2002 
        FAD includes a commitment by the City to implement, through the 
        Catskill Watershed Corporation, a new program to support the 
        operation and maintenance of septic systems, focusing first on 
        those systems that were recently repaired or replaced.
 Catskill Turbidity Control program. This is a new program under which 
        the City will develop and implement structural (i.e., in-
        reservoir) and non-structural (i.e., stream best management 
        practices) solutions to the perennial problem of turbidity in 
        the Catskill watershed. Milestones for program design and 
        implementation are included in the FAD.
 UV disinfection facility for Cat/Del system. The FAD includes a very 
        important commitment by the City to design and construct an 
        ultra-violet (UV) disinfection facility for the Cat/Del water 
        supply system by 2009. The UV facility will provide an 
        additional barrier in what is already a multi-barrier approach 
        to water supply protection, and will therefore provide a 
        tremendous health benefit to water consumers.
    EPA's 1997 FAD focused on program initiation and required the City 
to report out on the progress of those programs. By contrast, the 2002 
FAD focuses on milestone dates for specific actions and has more 
focused, results-oriented reporting requirements. Wastewater 
infrastructure, stream corridor protection, agriculture, and UV 
disinfection are just a few examples. New programs such as the Catskill 
Turbidity Control program naturally call for planning before 
implementation--but the FAD clearly focuses on and expects action.
    In addition, the City and New York State are putting more resources 
into enforcement and enforcement coordination. A formal protocol has 
been developed to better coordinate the implementation and enforcement 
of wetlands and stormwater regulations--something akin to the very 
successful City/State program to address point source pollution in the 
watershed.
    And finally, the 2002 FAD places more emphasis on monitoring and 
program analysis. The bottom line is that the City must have a 
comprehensive monitoring program in place that is adequate to gauge the 
success (or failure) of the many watershed protection programs that are 
in the FAD and Watershed MOA. No matter how much monitoring takes place 
in the watershed, unless the monitoring program is functionally 
connected to track the attainment of the objectives of the City's 
watershed protection programs, its adequacy, and the adequacy of the 
City's watershed protection efforts, will be difficult to evaluate.
    To that end, New York City, in consultation with EPA and New York 
State, redesigned its watershed monitoring program in 2003 to ensure 
that it is equipped to detect long-term trends and that it is set up to 
evaluate the success of many of the programs that are now being 
implemented. Questions that this program is designed to answer include: 
What is working and what isn't? Are we getting the water quality 
benefits that we expected? Would a particular program work better in a 
particular basin? It is important to recognize that this is not a 
static program. It is constantly subject to review and evaluation, and 
we will continue to work with the City and New York State to make 
modifications and enhancements as necessary.
    The scope of the City's sampling program is enormous. Besides daily 
sampling at aqueduct intakes and the distribution system to meet the 
objective criteria requirements of the Surface Water Treatment Rule, 
New York City routinely conducts at least twice-monthly sampling at all 
reservoirs (at several locations and at several depths), at over 130 
stream locations, and at the discharges of all 106 wastewater treatment 
plants in the watershed. In addition, the City conducts monitoring that 
targets specific concerns such as pathogens, waterfowl, storm-events 
and biological indicators of stream health.
    In the 2002 FAD, the City agreed to submit an annual Water Quality 
Indicators Report as a step towards integrating, analyzing and 
disseminating the tremendous amount of water quality data that it 
collects in the watershed. In fact, we received the second of these 
annual reports yesterday. In addition, the City will submit a 
comprehensive program and water quality evaluation report in March 
2006. That report will provide a rigorous basin-by-basin analysis of 
the City's watershed protection programs and will attempt to answer the 
questions posed above. The March 2006 report will also aide EPA and New 
York State, as we evaluate the City's watershed protection efforts in 
preparation for our next filtration determination, scheduled for April 
2007.
    In addition to the City's own monitoring program, Congress 
authorized, through the 1996 Amendments to the Safe Drinking Water Act, 
$15 million to be appropriated to the EPA Administrator for each of 
fiscal years 1997 through 2003, for the purpose of providing assistance 
to New York State to carry out watershed monitoring programs to support 
New York City's efforts. Congress has earmarked a total of $35.4 
million in the annual appropriations act from fiscal years 1997 through 
2004. All of these funds support monitoring programs that enhance the 
City's ability to comply with the FAD.
    EPA works closely with the New York State Department of 
Environmental Conservation to define the monitoring components of the 
City's watershed protection program and to optimize the expenditure of 
funds earmarked by Congress. It is through these collaborative efforts 
that we determine whether modifications to the City's monitoring 
program are necessary to meet the long-term objectives of EPA's 
filtration avoidance determination. If, through this iterative process, 
we conclude that such modifications are necessary to meet these 
objectives, we will require their deployment as a condition of 
continued filtration avoidance.
    In conclusion, compliance with our Filtration Avoidance 
Determination will achieve the objectives of the Safe Drinking Water 
Act and the Surface Water Treatment Rule for unfiltered systems. Our 
FAD establishes clear objectives, provides for comprehensive programs 
and sets aggressive milestones for their implementation. It also 
requires a robust monitoring program, the results of which have been 
and will continue to be used to define the scope of City's watershed 
protection program. We will continue to work closely with New York 
State on a program that is of paramount importance to both our 
agencies, the protection of the drinking water supply for 9 million 
people.
    Mr. Chairman, this concludes my prepared statement. I appreciate 
your interest in this issue, and would be pleased to answer any 
questions you or the Members of the Subcommittee may have.

    Mr. Gillmor. Thank you.
    Commissioner Crotty?

   STATEMENT OF ERIN M. CROTTY, COMMISSIONER, NEW YORK STATE 
            DEPARTMENT OF ENVIRONMENTAL CONSERVATION

    Ms. Crotty. Thank you, chairman. I really appreciate the 
opportunity to give testimony today.
    On behalf of Governor George Pataki, I want to thank you 
for holding today's hearing, H.R. 2771. The legislation is 
necessary to protect the drinking water supply of 9 million New 
Yorkers. That is half the State's population. And that 
represents 3 percent of the Nation's population.
    The Governor and I also want to thank Congressman Fossella 
and Congressman Towns and Congresswoman Kelly for testifying 
today and for their leadership in sponsoring this leadership. 
The cosponsorship of the entire New York delegation, I don't 
need to tell you, is symbolic and highlights the importance of 
this legislation to New York State.
    And I was particularly heartened to hear the unanimous 
support for the measure in the subcommittee members' opening 
statements this morning.
    The New York City water supply is an engineering marvel. It 
actually is two different water supply systems. There is the 
Catskill and Delaware system that is located in the Catskill 
Mountains, which are located west of the Hudson River and 
supply 90 percent of the city's drinking water. And then there 
is the Croton system, which is east of the Hudson River that 
supplies 10 percent. The Croton system has to be filtered and 
the city will provide filtration within the next decade. The 
Catskill and Delaware system will not be filtered. And as the 
largest unfiltered drinking water supply in the Nation, your 
help will ensure its long-term protection.
    EPA promulgated the Surface Water Treatment Rule in 1989 
which required all public unfiltered drinking water supplies to 
be filtered unless they had watershed control criteria in 
place. New York City faced building a filtration system which 
could cost up to $8 billion or develop a comprehensive 
Watershed Protection Program.
    In January and again in December 1993, EPA made a 
determination that New York City could avoid those filtration 
costs provided that certain watershed protection strategies 
were put in place. The city proposed excessive revisions to its 
1954 watershed regulations, and the battle lines were clearly 
drawn.
    There were up-staters against down-staters, water consumers 
versus watershed residents. Recognizing the need for a new 
collaborative approach, Governor Pataki convened the Ad Hoc 
Watershed Committee in April 1995 to break the impasse. After 7 
months of negotiations, we reached an agreement in principle, 
and 2 years later, we reached the historic watershed agreement, 
which cemented a partnership among New York City, New York 
State, the environmental organizations, EPA and 80 watershed 
host communities. The landmark agreement is the first and only 
of this magnitude in the Nation and is truly viewed as a 
national model on watershed protection.
    The watershed agreement has 3 core components: The 
acquisition of water-quality-sensitive land by the city from 
willing sellers; enhanced watershed rules and regulations and 
partnership programs to ensure the protection of the watershed 
and the protection of the economic vitality of the watershed 
communities; and of course a FAD from EPA which is in effect 
right now until 2007.
    While, at times, I will admit these efforts can be quite 
challenging, the watershed agreement proves that environmental 
and public health protection and economic viability are 
compatible public policy objectives. This historic agreement 
will continue to be successful only if an effective and 
sophisticated water quality monitoring and surveillance program 
for the watershed is in place.
    To address this concern, Congress approved language in the 
Safe Drinking Water Act Amendments of 1996 authorizing EPA with 
up to $15 million annually for 7 years for demonstration 
projects as part of the Watershed Protection Program for the 
protection of the drinking water supply. As a result of this 
authorization, we have been lucky enough to receive $31 million 
and matched it equally by recipients for 66 projects.
    H.R. 2771 would allow this authorization to stay in place 
through 2010. Congressional authorization for this EPA program 
has expired, but clearly the need has not. The commitment of 
Congress and EPA to support the effective protection of the New 
York City watershed is the linchpin that holds this agreement 
together.
    The Federal funding gives us the ability to literally take 
the temperature of the watershed, assess its conditions and 
administer appropriate remedies before water quality is 
compromised. It is a perfect complement to the efforts being 
undertaken by the State of New York, New York City and the 
watershed communities to protect the watershed in a 
scientifically sound and fiscally responsible manner.
    The watershed agreement brought out the best in government 
officials. Theodore Roosevelt is quoted as saying that, ``A 
Nation behaves well if it treats natural resources as assets 
which it must turn over to the next generation increased and 
not impaired in value.'' I believe New Yorkers and Congress 
have behaved well in developing this historic agreement and 
providing the means to demonstrate its effectiveness through 
the Safe Drinking Water Act Authorization. Our children and our 
children's children will be proud of what we have done.
    We need your help in continuing to develop the scientific 
base and our understanding of the effectiveness of the 
Watershed Protection Program to make certain that the course of 
action chosen will continue to protect the drinking water 
supply of 9 million New Yorkers.
    Chairman Gillmor, on behalf of Governor Pataki, I want to 
thank you for holding the hearing on the issue which is 
important to all New Yorkers. I look forward to working with 
you and Members of the subcommittee and your staff to ensure 
the swift passage of H.R. 2771.
    [The prepared statement of Erin M. Crotty follows:]

  Prepared Statement of Erin M. Crotty, Commissioner, New York State 
                Department of Environmental Conservation

    Chairman Gillmor and members of the Subcommittee, on behalf of 
Governor Pataki I want to thank you for holding today's hearing on H.R. 
2771. As I will outline below, this legislation is necessary to protect 
the water supply of nine million New Yorkers--more than half of the 
State's population. Because of this bill's importance, the Governor and 
I want to thank Congressman Fossella and Congressman Towns for their 
leadership in sponsoring this important measure. The co-sponsorship of 
21 of their colleagues in the New York Delegation highlights the 
importance of this legislation to New York State.

                          HISTORY AND OVERVIEW

    This Watershed, commonly referred to as the ``New York City 
Watershed,'' is the drinking water source for eight million New York 
City residents and one million upstate New Yorkers.
    The New York City water supply system is an engineering marvel 
which combines reservoirs, controlled lakes and streams, pumping 
stations, and 170 miles of aqueducts. The Watershed is composed of two 
water supply systems. The Catskill and Delaware system is located 
predominately west of the Hudson River and supplies ninety percent of 
New York City's drinking water. The Croton system--which came on line 
in 1842--is located East of the Hudson River in portions of 
Westchester, Putnam and Dutchess Counties and supplies ten percent of 
the City's water supply but has provided up to thirty percent in times 
of drought.
    Due to the impacts of development and the natural characteristics 
of the region, the New York State Department of Heath determined in 
1992 that the Croton System must be filtered. The City will invest over 
$600 million in already committed funds to build a filtration plant for 
the Croton System. The filtration plant is scheduled to be constructed 
and operational between 2010 and 2012.
    In 1911, after construction of the reservoir system had been 
partially completed, the Public Health Law was amended to effectively 
give New York City control over activities in its Watershed. This was a 
legislative and policy achievement of some note since most of the water 
supply system lies outside the jurisdictional boundary of the City. 
Furthermore, the powers granted to the City were broad, including the 
authority to promulgate regulations for the purpose of protecting the 
Watershed. The first regulations governing activities in the Watershed, 
all 2 + pages, were adopted by both the City and the State in 1954. The 
City also has the right to exercise eminent domain to expand or protect 
its Watershed pursuant to state law.
    With development spreading out of the country's metropolitan areas, 
many public health experts and citizens became concerned about the 
consequences of such growth on water quality. More than 30,000 on-site 
sewage treatment and disposal systems and 41 centralized wastewater 
treatment plants discharge into the upstate watershed. Non-point source 
pollution from roads, dairy farms, lawns, and golf courses containing 
fertilizers, herbicides, pesticides, motor oil, road salt and sediment 
impacts the watershed. Responding to that concern, Congress passed the 
Safe Drinking Water Act (SDWA) Amendments of 1986 which authorized the 
Environmental Protection Agency (``EPA'') to promulgate regulations to 
identify criteria under which filtration of a surface water drinking 
source would be required. Following its adoption, EPA began to monitor 
more closely New York City's unfiltered public drinking water system.
    EPA promulgated the Surface Water Treatment Rule in June 1989 which 
required all public unfiltered surface drinking water systems in the 
country to provided filtration by June 1993 unless the water supply 
system could meet watershed control criteria to avoid filtration. New 
York City faced building a filtration system estimated to cost up to $8 
billion or develop a comprehensive Watershed protection program.
    In January 1993 and again in December 1993, the EPA made a 
determination, the ``Filtration Avoidance Determination,'' that New 
York City could avoid filtering its water supply provided that the City 
implement certain Watershed protection strategies, including updating 
its Watershed regulation and acquiring at least 80,000 acres of 
environmentally sensitive land. Filtration of the City's water supply 
system could be avoided until December 15, 1996 or until the EPA made a 
further determination.
    As a result of EPA's action, the City proposed excessive revisions 
to the 1954 Watershed protection regulations. The reaction was 
instantaneous and some Watershed residents argued that the Watershed 
regulations would suffocate all economic opportunities in the 
Watershed. In addition, New York City applied for a water supply permit 
from the New York State Department of Environmental Conservation to 
begin acquiring environmentally sensitive property. The battle lines 
were clearly drawn--upstaters against downstaters, water consumers 
versus Watershed residents. In the months and years that followed the 
1993 Filtration Avoidance Determination, the City released four 
revisions to their Watershed regulations. None were acceptable to all 
parties.

                        THE WATERSHED AGREEMENT

    Recognizing the need for a new collaborative approach to make a FAD 
possible, Governor Pataki convened the Ad Hoc Watershed Committee in 
April 1995 to break the impasse. After seven months of negotiations an 
agreement in principle was reached and, on January 21, 1997, the 
historic ``New York City Watershed Agreement'' which cemented a 
partnership among New York City, New York State, EPA, environmental 
representatives, and the 80 Watershed host communities, was signed. 
This landmark agreement formed a new partnership to protect New York 
City's Watershed, yet ensured the economic vitality of the Watershed 
communities. Its innovative, cooperative watershed protection program 
is the first and only of this magnitude in the nation, and is viewed as 
a national model for watershed protection.
    The Watershed Agreement has three core components: acquisition of 
water quality sensitive land by the City from willing sellers; enhanced 
Watershed Rules and Regulations; and ``Partnership Programs'' to ensure 
protection of the Watershed and protection of the economic vitality of 
Watershed communities. None of these programs or efforts can be 
accomplished successfully without the cooperation, hard work and 
determination of all involved parties. While at times these efforts can 
be challenging, the sheer volume of work undertaken demonstrates the 
overwhelming desire of the parties to make the Agreement a success. The 
Watershed Agreement proves that environmental and public health 
protection and economic viability are compatible public policy 
objectives.

                    THE NEED FOR FEDERAL ASSISTANCE

    While this historic Agreement laid the groundwork for the 
protection of the New York City Watershed, it will continue to be 
successful only if an effective and sophisticated water quality 
monitoring and surveillance program for the Watershed is in place. To 
address this concern, the United States Congress approved language in 
the Safe Drinking Water Act Amendments of 1996 (P.L. 104-182) to 
provide EPA with up to $15 million annually for seven years ``for 
demonstration projects implemented as part of the watershed program for 
the protection and enhancement of the quality of source waters of the 
New York City water supply system . . .'' As a result of this 
authorization, a total of $31 million has been provided and matched 
equally by recipients, for projects that have evaluated the impacts of 
land use on the drinking water supply and monitored nonpoint source 
pollution that could negatively impact water quality. Other projects 
have comprehensively sampled and assessed the effects of trace organics 
and metals, toxics, pesticides and nutrients in the watershed. We also 
have demonstrated which best management options would be the most 
effective at reducing phosphorus loading in runoff and storm water.
    Working together, the City and the State have taken such innovative 
actions as developing three-dimensional models of Total Maximum Daily 
Loads to the water supply and creating an integrated, watershed-wide 
monitoring program to address source and ecosystem impairments. We have 
developed new, state-of-the-art Geographic Information System 
technologies. Wetlands have been mapped for potential acquisition, and 
cutting-edge technology has been developed to devise biocriteria for 
wetlands disturbances.
    Watershed funds have been used to support essential education and 
outreach programs for the general public, and to determine the most 
efficacious and cost-effective best management practices. We have 
prioritized agricultural concerns, by comprehensively assessing the 
impacts of nonpoint source pollution on the water supply system, 
including agricultural waste and agricultural run-off. Overall, our 
actions have been aggressive, and intended to use the funds which 
Congress has provided wisely, innovatively, and cost-effectively.
    Congressional authorization for this EPA program has expired, but 
the need for it has not. Through the efforts described above, as well 
as other initiatives, we are enhancing the protection of New York 
City's water supply while developing models of watershed protection 
that are easily translated to other regions of the country.
    The Watershed Agreement represents a consensus of all parties 
involved, and has fostered the implementation of many innovative 
watershed protection programs and pollution prevention initiatives. The 
commitment of Congress and EPA to support the effective protection of 
the New York City Watershed is the linchpin that continues to hold the 
entire Agreement together.
    The federal funding gives us the ability to take the temperature of 
the Watershed, assess its conditions, and administer appropriate 
remedies before water quality is compromised. It is a perfect 
complement to the efforts being undertaken by New York State, New York 
City, and the Watershed communities to protect the Watershed in a 
scientifically sound and fiscally responsible manner. With the help of 
the federal government, we are better able to monitor the quality of 
the drinking water of nine million people and prevent the degradation 
of this vital natural resource before it occurs.

                               CONCLUSION

    The Watershed Agreement brought out the best in government 
officials. The negotiations required the participants to think outside 
the box. Reaching agreement and implementing the Agreement has required 
creativity, patience and perseverance.
    Theodore Roosevelt is quoted as saying the ``a nation behaves well 
if it treats the natural resources as assets which it must turn over to 
the next generation increased, and not impaired, in value.''
    I believe that New Yorkers and Congress have behaved well in 
developing this historic Agreement and providing the means to 
demonstrate its effectiveness through the SDWA authorization. We have 
dramatically increased the future value of the Watershed, of New York 
City's drinking water, and of the Catskill and Hudson Valley regions. 
Our children and our children's children will be proud of what we have 
done.
    We need your help in continuing to develop the scientific base and 
our understanding of the effectiveness of the Watershed protection 
programs to make certain that the course of action chosen will continue 
to protect the drinking water supply of nine million Americans.
    Chairman Gillmor, on behalf of Governor Pataki I want to thank you 
again for holding a hearing on an issue which is important to all New 
Yorkers. I look forward to working with you and your staff to ensure 
the swift passage of H.R. 2771. Thank you.

    Mr. Gillmor. Thank you, Commissioner.
    Mr. Rosa?

 STATEMENT OF ALAN ROSA, EXECUTIVE DIRECTOR, CATSKILL WATERSHED 
                          CORPORATION

    Mr. Rosa. Thank you, Mr. Chairman, good morning. It is a 
privilege to speak with you today about the Catskill mountains, 
an area that I call home and a region that has supplied pure 
water to millions of New Yorkers for almost a century.
    I would like to give you a little personal background. I 
have lived Dry Brook Valley near Arkville in Delaware County, 
New York, in the middle of the Catskill Park. My family has 
lived in this area for the better part of 200 years. My father 
was a forest ranger with the State Conservation Department, and 
our home is surrounded by forever wild forest preserve lands.
    Naturally, I grew up for a love of the outdoors and hunting 
and fishing. There is still nothing I would rather do than take 
my flyrod down to the east branch of the Delaware River and try 
to outsmart a trout or two.
    I was an accountant and small business owner before I was 
elected supervisor of the Town of Middletown in 1990, the year 
that the New York City Department of Environmental Protection 
released its draft Watershed Protection Program.
    Three months after I took office, I became involved in 
organizing the Coalition of Watershed Towns, which included 
representatives of 50 towns and villages in a 1,600 square mile 
west of the Hudson River. We were very concerned about the 
proposed regulations and their effect on our farms and 
communities. We worried that the rules would threaten our very 
survival.
    Our biggest worry was the city would have the power to 
condemn private property in order to acquire land to keep it 
undeveloped. This was the biggest reason I became involved in 
the effort to negotiate a fair deal for the up-state 
communities. Several of my relatives were displaced when the 
city built its reservoirs in the Catskills. I did not want my 
family's painful experience to be repeated. I was afraid that 
the proposed regulations in the city land acquisition plans 
would mean that my children and my neighbors' children would no 
longer have the opportunity to live and make a living here as 
their ancestors had.
    We talked and debated and argued for 4 years trying to 
figure out how the city could avoid building a budget-busting 
filtration plant while not suffocating commerce or imposing the 
costs of additional regulations onto the local residents, 
businesses and municipalities. This was a challenge, to put it 
mildly.
    Not long after George Pataki took office as Governor, in 
1995, he appointed his chief counsel to mediate an agreement. 
That fall, we had a conceptual agreement between the Coalition 
and the city, and the final memorandum agreement was signed in 
Albany in January 1997.
    Among other things, it allows the city to buy but not 
condemn vacant land. The EPA, which drove the watershed 
protection effort, was and remains a key player in the MOA.
    The MOA established the Catskill Watershed Corporation to 
develop and implement a number of environmental-protection, 
economic-development programs funded by the city. The CWC Board 
of Directors, which includes 12 elected officials from 5 
counties along with city, State environmental representatives 
elected me as the first President, and I became the executive 
director in 1998.
    The new relationship between the up-state communities and 
the city could be called a shotgun marriage. Our shared history 
is not a happy one, and we still argue now and then, but the 
MOA has given us a framework to deal with difficult issues as 
equal partners on a level playing field.
    The bottom line is we all want clean water. Those of us who 
live in the watershed, after all, take the first drink. I 
believe that basically people want to do the right thing and 
protect the critical resources.
    But in our area, where opportunities are few and many 
people live in poverty, they need the means to do that. Our 
Septic Replacement Program is a good example of that. CWC pays 
to replace failed residential septic systems which treated 
water quality--which threaten water quality. This helps the 
homeowner who might not have $8,000 or $10,000 to put into a 
new system. It helps local contractors, employs laborers who do 
the repair work. And it helps the New York City water consumer 
by removing the possible health threat.
    The same holds true for other Watershed Protection 
Programs. The salt storage sheds that have been built, the 
storm water control measures that have been installed, the 
stream rehabilitation projects that have been completed, all of 
them have helped the local economy, the municipalities on tight 
budgets, the businesses trying to meet watershed regulations, 
the homeowner who lives adjacent to the streams and the 
consumers at the other end of the pipe.
    We are proud of the work we have done in the educational 
grants to schools and nonprofits in the watershed and in New 
York City. We have funded projects to help young people 
understand the importance of preventing pollution and 
conserving water. They have explored the history of the 
watershed and the amazing New York City water system, and they 
have linked up-State and down-State students who will become 
the stewards of this water system just in a few years from now.
    Since the MOA was signed 7 years ago, we have helped new 
businesses open, assisted revitalization efforts to improve our 
main streets, promoted the region so that more tourists are 
visiting our beautiful land, eating at our local restaurants 
and staying in our motels and inns. There are fewer for-sale 
signs on our homes and businesses, as people decide to move to 
and stay in the area because of its clean environment and 
improving economy.
    We have become more aware that water quality protection is 
everybody's business, and it is economic development in the 
Catskills.
    In essence, we produce clean water. We ask you to continue 
to be an active player in this effort by reauthorizing H.R. 
2771 and funding the research, monitoring and educational 
programs that are an important element of the work we are doing 
in the New York City watershed.
    [The prepared statement of Alan Rosa follows:]

Prepared Statement of Alan Rosa, Executive Director, Catskill Watershed 
                              Corporation

    Good Morning. It is a privilege to speak with you today about the 
Catskill Mountains, an area that I call home, and a region that has 
supplied pure water to millions of New Yorkers for almost a century.
    First, a little personal background. I have lived my whole life in 
the Dry Brook Valley near Arkville in Delaware County, New York, in the 
middle of the Catskill Park. My family has lived in this area for the 
better part of 200 years. My father was a Forest Ranger with the State 
Conservation Department, and our home is surrounded by ``Forever Wild'' 
Forest Preserve lands. Naturally I grew up with a love of the outdoors 
and of hunting and fishing. There is still nothing I would rather do 
than take my fly rod to the East Branch of the Delaware River and try 
to outsmart a trout or two.
    I was an accountant and small business owner before I was elected 
supervisor of the Town of Middletown in 1990, the year the New York 
City Department of Environmental Protection released its draft 
Watershed Protection Program. Three months after I took office, I 
became involved in organizing the Coalition of Watershed Towns, which 
included representatives of 50 towns and villages in the 1600-square-
mile Watershed west of the Hudson River. We were very concerned about 
the proposed regulations, and their effect on farms and communities. We 
worried that the rules would threaten our very survival.
    Our biggest worry was that the City would have the power to condemn 
private property in order to acquire land to keep it undeveloped. This 
was one of the biggest reasons I became so involved in the effort to 
negotiate a fair deal for upstate communities. Several of my relatives 
were displaced when the City built its reservoirs in the Catskills. I 
did not want my family's painful experience to be repeated. I was 
afraid that the proposed regulations, and the City's land acquisition 
plans, would mean that my children, and my neighbors' children, would 
have no opportunity to live, and make a living here, as their ancestors 
had.
    We talked and debated and argued for four years, trying to figure 
out how the City could avoid building a budget-busting filtration 
plant, while not suffocating commerce, or imposing the costs of added 
regulations onto local residents, businesses and municipalities. This 
was a challenge, to put it mildly. Not long after George Pataki took 
office as Governor in 1995, he appointed his chief counsel to mediate 
an agreement. That fall we had a conceptual agreement between the 
Coalition and the City, and the final Memorandum of Agreement was 
signed in Albany in January of 1997. Among other things, it allows the 
City to buy, but not condemn, vacant land.
    The EPA, which drove the Watershed Protection effort, was, and 
remains, a key player in the MOA.
    The MOA established the Catskill Watershed Corporation to develop 
and implement a number of environmental protection and economic 
development programs, funded by the City. The CWC board of directors, 
which includes 12 elected officials from 5 counties, along with city, 
state and environmental representatives, elected me its first 
president. I became executive director in 1998.
    This new relationship between the upstate communities and the City 
could be called a shotgun marriage. Our shared history is not a happy 
one, and we still argue now and again. But the MOA has given us a 
framework to deal with difficult issues as equal partners, on a level 
playing field. The bottom line is: We all want clean water. Those of us 
who live in the Watershed take the first drink, after all.
    I believe that basically, people want to do the right thing and 
protect this critical resource. But in our area, where opportunities 
are few and many people live in poverty, they need the means to do 
that. Our septic replacement program is a good example--the CWC pays to 
replace failed residential septic systems which threaten water quality. 
This helps the homeowner, who might not have eight or ten thousand 
dollars to put in a new system. It helps local contractors and employs 
laborers who do the repair work. And it helps New York City water 
consumers by removing a possible health threat.
    The same holds true for other Watershed programs: The salt storage 
sheds that have been built, the stormwater control measures that have 
been installed, the stream rehabilitation projects that have been 
completed. All of them have helped the local economy--the 
municipalities on tight budgets, the businesses trying to meet 
Watershed regulations, the homeowners who live adjacent to streams, and 
the consumers at the other end of the pipe.
    We are also proud of the work we have done in the education field. 
Grants to schools and non-profits in the Watershed and in New York City 
have funded projects to help young people understand the importance of 
preventing pollution and conserving water. They have explored the 
history of the Watershed and the amazing NYC water system. And they 
have linked upstate and downstate students who will become the stewards 
of this water system just a few years down the road.
    Since the MOA was signed seven years ago, we have helped new 
businesses open, assisted revitalization efforts to improve our Main 
Streets, promoted the region so that more tourists are visiting our 
beautiful mountains, eating in the local restaurants, and staying at 
motels and inns. There are fewer For Sale signs on homes and businesses 
now, as people decide to move to, and stay in this area because of its 
clean environment and improving economy.
    We have become more aware than ever that water quality protection 
is everybody's business. And that it IS economic development in the 
Catskills. In essence, we produce clean water. We ask you to continue 
to be an active partner in this effort, by reauthorizing HR 2771 and 
funding the research, monitoring and education programs that are 
important elements of our work in the New York City Watershed.
    Thank you.

    Mr. Gillmor. Thank you.
    And Mr. Olson?

 STATEMENT OF ERIK D. OLSON, SENIOR ATTORNEY, NATURAL RESOURCES 
                        DEFENSE COUNCIL

    Mr. Olson. Thank you, Mr. Chairman. The Natural Resources 
Defense Council is a New York-based organization; although we 
are a national organization. And we want to emphasize how 
important we think that it is.
    It has been decades we have fought to protect the New York 
City watershed. It is a national treasure that deserves 
vigorous protection.
    In addition, it is important we are talking about 2,000 
square miles of watershed that has had considerable progress 
made over the recent years, but significant threats do remain.
    In addition, the watershed program is an unprecedented 
effort. The State, the city, up-state communities and 
environmentalists have worked hard on the watershed agreement.
    In addition, the funds that have been expended so far under 
this program have been very well spent, including sophisticated 
computer systems, advanced GIS data bases, stream-bank 
stabilization, demonstration projects and comprehensive 
assessments of streams. We think continuation of this program 
at full funding is essential to protection of the city's 
watershed and drinking water quality.
    In addition, we think H.R. 2771's important goals of 
reauthorizing Section 1443 are important, and we support them. 
Funding for this innovative program is something that we 
support.
    It is critical to the long-term safety of half of the 
population of New York State. In addition to this important 
issue in New York State, we think it is also important for this 
committee to look at, as several Members of the committee have 
already raised, the big picture of the national problem with 
drinking water.
    There are several now obvious problems with the Safe 
Drinking Water Act. There are other programs that have not been 
authorized--reauthorized, including the basic backbone of the 
statute, the drinking water standards, research, the studies, 
operator certification, capacity, development, technical 
assistance, State programs for sole-source aquifers, State 
programs for wellhead protection, drinking water supply 
supervision programs and the list goes on.
    But importantly the State Resolving Fund, $1 billion, has 
now had its authorization expire last year. There is an ongoing 
crises with lead in the drinking water not only here in DC but 
across the country. The tap water sitting on this table may 
have lead in it, and thousands of people in this city have been 
told it is not safe to drink their water.
    In addition, arsenic the rocket fuel perchlorate, atrazine 
and numerous other contaminants are found in drinking water 
supplies across the country.
    EPA has issued no new drinking water standards in 8 years. 
The Drinking Water Enforcement Program has plummeted in the 
last 3 years under this Administration. And the Inspector 
General has said there are serious problems with tracking 
compliance. And finally, we have a $500 billion drinking water 
infrastructure problem in this country that needs to be 
addressed by this committee.
    So I am trying to be brief, but I will say in summary, that 
we do urge you to fully fund the New York City Watershed 
Protection Program. It is an important item, and we support 
H.R. 2771.
    However, we urge that this committee will take expedited 
steps to address the many other important programs that are 
relevant under the Safe Drinking Water Act that are now 
expired, that are intended to protect 260 million people across 
this country. We really need to look at the big picture. And 
again, we do support the legislation that the committee is 
considering.
    Thank you.
    [The prepared statement of Erik D. Olson follows:]

Prepared Statement of Erik D. Olson, Senior Attorney, Natural Resources 
                            Defense Council

                              INTRODUCTION

    Thank you for the opportunity to testify. I am Erik D. Olson, a 
Senior Attorney with the Natural Resources Defense Council (NRDC), a 
national non-profit public interest organization dedicated to 
protecting public health and the environment, with over 500,000 
members.<SUP>1</SUP> I also am Chair of the Campaign for Safe and 
Affordable Drinking Water, an alliance of over 300 medical, public 
health, nursing, consumer, environmental, and other groups working to 
improve drinking water protection, and serve on the steering committee 
of a new organization called Lead Emergency Action for the District 
(LEAD), a coalition of local and national civic groups, environmental, 
consumer, medical, and other organizations and citizens urging a 
stronger public response to the D.C. lead crisis. I testify today only 
on behalf of NRDC.
---------------------------------------------------------------------------
    \1\ Eric Goldstein, an NRDC Senior Attorney in New York and 
nationally-recognized leader in the effort to protect the New York City 
water supply, substantially assisted in the development of this 
testimony.
---------------------------------------------------------------------------
    NRDC strongly supports continued funding for this watershed 
program, which we believe is a national model. At the same time, we 
believe that it is critical for Congress to also address the pressing 
nationwide funding needs of the SDWA, including reauthorization of the 
full State Revolving Fund and many other expired authorizations in the 
Act.
    In my testimony today, I will first highlight NRDC's reasons for 
supporting continued full funding for the New York City Watershed 
protection Program and then summarize our concerns regarding the 
importance of reauthorizing nationwide funding and of, reviewing 
problems with, all of the important provisions of the Safe Drinking 
Water Act.

                      THE NEW YORK CITY WATERSHED

NRDC Supports Funding for the New York City Watershed Protection 
        Program
    As you may know, NRDC was incorporated as a not-for-profit 
organization in New York State and our principal offices have been 
located in New York City since the organization's founding in 1970. For 
more than three decades, NRDC lawyers and scientists have devoted 
significant efforts to protecting environmental health and natural 
resources in and around the nation's largest city. A long-standing 
priority for us in this region has been to protect the New York City 
water supply, which provides drinking water to nine million downstate 
New Yorkers, primarily in New York City and nearby Westchester County.
    Over the years, NRDC staff have, among other things, advocated for 
comprehensive watershed protection programs, brought successful 
litigation to force the establishment of water pollution limits for the 
City's 19 upstate reservoirs and joined with city and state officials 
to support filtration avoidance for New York's Catskill and Delaware 
water systems, pursuant to the Safe Drinking Water Act and EPA's 
implementing regulations, the Surface Water Treatment Rule. See 42 
U.S.C.  1412, 40 C.F.R. Section 141.71. This New York water system is 
the region's critical lifeline, supplying water to half the state's 
population as well as millions of tourists and visitors every year. For 
this and many other reasons, safeguarding the New York City water 
supply, including the 1.2 million acres of watershed lands that drain 
into the New York reservoirs, has been one of NRDC's paramount 
objectives in New York.
    Because of the historically high quality of New York's Catskill and 
Delaware supplies, New York City applied for a waiver from the U.S. EPA 
from the requirement that the city construct filtration facilities, as 
otherwise required by the Safe Drinking Water Act and its implementing 
regulations. NRDC supported this request, based upon the city's tap 
water from these systems meeting all federal and state standards and 
upon our conviction that long-term water quality would be further 
enhanced by New York's implementation of a vigorous program to protect 
the New York water supply at its source via cost-effective watershed 
protection. Based upon New York City promises to implement such a 
program, EPA granted the city several filtration avoidance waivers 
during the early 1990s. But some of the programs proposed by New York 
City, such as updating its watershed rules to restrict polluting 
activities on upstate watershed lands, proved to be controversial. And 
full scale implementation of a comprehensive watershed protection 
measures was delayed.
    In 1997, Governor George Pataki, Mayor Rudolph Giuliani and upstate 
watershed elected officials signed a memorandum of understanding, in 
which the parties agreed to advance various watershed protection 
measures, to provide funding for environmentally sound economic 
development within watershed communities and to work together in the 
future on their mutual interests in safeguarding this irreplaceable 
watershed, its residents and the health of the public who rely on it 
for their drinking water. The program included literally hundreds of 
measures, including city funding to pay for upgrades to sewage plants 
discharging treated wastewaters in the watershed, for septic system 
inspections and repairs, and for the purchase, in willing buyer, 
willing seller transactions, of undeveloped--watershed lands. NRDC 
viewed the 1997 watershed agreement as a good first step, while 
recognizing that enormous challenges remained ahead, including 
implementation of the agreement itself as well as such issues as the 
continued threat from sprawl development and other pollution-generating 
activities.
    Over the past seven years, NRDC has closely monitored the 
implementation of this program, and can report that progress has been 
made. Many of the more than 100 sewage plants located throughout the 
watershed have been upgraded. Well over 1,000 septic systems have been 
repaired or replaced. And New York City has purchased over 50,000 acres 
of watershed lands from willing sellers in the upstate watershed 
region. Based upon such progress, the USEPA renewed New York City's 
filtration avoidance waiver in 2002, granting another five year 
extension until 2007. The filtration avoidance waivers that EPA has 
granted have provided the impetus for all of the parties to concentrate 
their efforts on watershed protection and pollution prevention. Indeed, 
New York City has already committed to spend 1.6 billion dollars to 
advance it watershed protection and related programs. This is, of 
course, a cost-effective investment, since the price tag for building a 
filtration plant for the one billion gallon a day Catskill and Delaware 
system is more than 6 billion dollars in capital costs alone.
    Despite this success, the New York City's watershed protection 
program faces major challenges. The pace of sprawl has not abated, 
increasing the amount of paved surfaces on watershed lands that were 
formerly--meadows and forests. Several large development projects 
threaten to suburbanize portions of this still mostly rural Catskill 
and Delaware watershed. And historic problems such as turbidity in 
streams that feed several reservoirs have yet to be fully addressed. In 
short, it is more important than ever that New York City, New York 
State and the upstate watershed communities expand their efforts to 
safeguard this watershed via cost-effective pollution prevention 
measures.
    The New York City Watershed Protection Program that is the subject 
of today's hearing is a small but essential part of the unprecedented 
cooperative effort that New York's upstate and downstate officials are 
making to safeguard the nation's largest municipal drinking water 
supply. The program authorizes financial assistance for New York Sate 
funding of demonstration projects in two major categories--monitoring 
and surveillance of watershed protection projects, and projects 
necessary to comply with the federal criteria for avoiding filtration 
set forth in 40 C.F.R. 141.71.
    Over the years, the funds from this program have been well spent. 
For example, the funds assisted New York City in providing computers 
with sufficient capabilities to handle the enormous amount of pollution 
data that was being generated, but which was not being adequately 
tracked and tabulated. In addition, the funding helped New York Sate 
create a new, complex GIS data base so that modeling assessments 
throughout the 2,000 square mile Catskill and Delaware watersheds could 
be better performed. Third, the funds have been used to monitor 
streambank stabilization and restoration projects and to determine the 
impacts of local pesticide use on stream water quality. And an 
independent consultant has also been hired using these funds to conduct 
a detailed assessment of watershed streams, to assess among other 
things their capacity to assimilate pollutants, so as to retain the 
purity of waters entering into the upstate reservoirs themselves.
    To be sure, the federal funding program we are discussing today is 
quite small in comparison to the well over a billion dollars that New 
York water ratepayers are paying to implement their watershed 
initiative. (From 1997 to 2002, a total of $26 million dollars in Safe 
Drinking Water Act funds were appropriated for the New York City 
Watershed Protection Program.) But a continuation of this program, at 
full funding, is essential to the long-term success of the overall 
effort, and to the retention of the federal government as a partner in 
this nationally significant watershed protection demonstration program. 
Accordingly, we urge that you reauthorize the New York City Watershed 
Protection Program and provide full funding for New York State to 
implement this innovative clean water initiative through the year 2010.

        THE NEED FOR A COMPREHENSIVE REAUTHORIZATION OF THE SDWA

    While it is of course important that Congress reauthorize the 
provision in section 1443(d)(4) of the SDWA that authorizes the New 
York City watershed protection demonstration program, it is important 
that such a reauthorization come as part of a comprehensive review and 
reauthorization of the SDWA as a whole. The 1996 SDWA Amendments 
created and authorized numerous new drinking water programs, and 
revised and reauthorized many existing programs, but these 
authorizations expired in 2003.
    Among the important authorizations that expired in 2003 are:

 Drinking Water Regulations. The heart of the SDWA's drinking water 
        program, section 1412 authorizes $35 million/year for studies 
        and analyses to support the standard-setting program for 
        establishing national primary drinking water regulations to 
        protect public health.
 Operator Certification. This program established in section 1419 by 
        the 1996 SDWA Amendments, authorizes $30 million/year for EPA 
        grants to states to run programs to ensure the proficiency and 
        certification of drinking water system operators.
 Capacity Development. Another program established by the 1996 
        Amendments (section 1420), authorizes $5 million/year for small 
        system technology assistance grants and $1.5 million/year for 
        the small system capacity development program.
 Sole Source Aquifer Demonstration Program. The sole source aquifer 
        program in section 1427 authorizes $15 million/year for grants 
        to protect underground aquifers that are the sole or primary 
        source of drinking water for a region against contamination.
 State Wellhead Protection Programs. Section 1428 authorizes $30 
        million/year for states to develop and implement wellhead 
        protection programs to defend public water supply wells against 
        contamination.
 State Ground Water Protection Grants. The 1996 Amendments authorized, 
        in section 1429, $15 million/year in grants to states to 
        develop and implement state programs to ensure coordinated and 
        comprehensive protection of ground water resources.
 Technical Assistance to Small Water Systems. Section 1442(e) 
        authorizes $15 million/year in funding to assist small systems 
        to achieve and maintain compliance with national primary 
        drinking water regulations.
 State Grants for Public Water System Supervision Programs. Section 
        1443(a)(7) authorizes $100 million/year in grants to states to 
        run their drinking water programs to supervise the safety of 
        public water systems.
 State Grants for Underground Injection Control Programs. Section 
        1443(b)(5) authorizes $15 million/year to carry out their 
        underground injection control programs that regulate activities 
        such as injection of millions of gallons of hazardous waste 
        underground.
 New York City Watershed Protection Program. As noted above, section 
        1443(d) authorizes $15 million/year for demonstration projects 
        to protect the city's watershed.
 National Assistance Program for Water Infrastructure and Watersheds. 
        The 1996 Amendments unconditionally authorized $25 million/year 
        (and authorized another $25 million/year in any fiscal year for 
        which the State Revolving Fund is 75% funded) for grants to 
        states to provide technical and financial assistance for the 
        construction, rehabilitation, and improvement of public water 
        systems and for source water protection programs, in 42 U.S.C. 
         300j-3c.
 Records, Inspections, and Monitoring. The SDWA also authorizes $10 
        million/year for monitoring for levels of unregulated 
        contaminants in drinking water, in  1445(a)(2).
 State Revolving Fund. The biggest expired authorization is $1 
        billion/year for the drinking water State Revolving Fund, which 
        was established in section 1452 to provide states funds to 
        operate revolving funds that finance loans (and limited grants 
        to disadvantaged communities), to facilitate compliance with 
        EPA drinking water rules or to significantly further health 
        protection objectives of the SDWA.
 Source Water Petition Program. Section 1454 authorizes $5 million/
        year for grants to states to carry out programs under which 
        water systems or municipalities may submit a petition to get 
        funding for source water protection programs.
 Drinking Water Studies. Section 1458 authorizes $12.5 million/year 
        for studies of waterborne disease, health effects of 
        contaminants on pregnant women, infants, children, the elderly, 
        and other vulnerable populations, and other important issues 
        regarding the potential impacts of drinking water contaminants 
        on public health.
    Thus, it is clear that there are many important drinking water 
programs whose authorizations have expired, and that deserve 
Congressional review and, we believe, generally also deserve 
reauthorization.

             THE NEED FOR REVIEW OF PROBLEMS WITH THE SDWA

    In addition to the need for reauthorization of these provisions of 
the Act, we strongly believe that Congress needs to review how the SDWA 
is working. We are deeply concerned about many aspects of state and EPA 
implementation of the SDWA. For example, as the lead crisis that has 
erupted in the past two months in Washington D.C. illustrates, EPA's 
and many water and school systems' lead in drinking water programs are 
manifestly inadequate. In addition, as discussed below, there are 
numerous other problems with EPA's and states' implementation of the 
SDWA, including EPA's failure since the 1996 SDWA Amendments to issue 
or even propose any new standards for contaminants that were not 
explicitly mandated by Congress despite strong evidence that many 
unregulated contaminants foul the tap water of tens of millions of 
Americans. We briefly discuss some of these issues below.
Lead in Drinking Water
    The local drinking water lead crisis poses serious public health 
risks to thousands of residents of the national capital area, and casts 
a dark shadow of doubt over the ability, resources, or will of federal 
and local officials to fulfill their duty to protect our health. EPA 
has the primary responsibility for protecting drinking water only in 
Washington D.C., Wyoming, and a few U.S. territories. However, EPA has 
failed to fulfill its obligation to aggressively oversee the safety of 
D.C.'s water supply, to ensure that the public is fully apprised of the 
health threats posed by our drinking water, and to enforce the law. 
This raises important questions about the adequacy of EPA's drinking 
water program not only for the Nation's Capital, but also for the whole 
nation. The U.S. Army Corps of Engineers' Washington Aqueduct Division 
(the Corps) has failed to treat the water it delivers to D.C. and 
neighboring Northern Virginia communities sufficiently to assure that 
the water is not corrosive, in order to reduce lead contamination. The 
D.C. Water and Sewer Authority (WASA) failed to act promptly or 
adequately on the lead contamination crisis, and repeatedly confused 
and mislead the public about the lead problem. To date, the local and 
federal response has been little short of an embarrassment. The 
nation's capital's water supply should be the best in the world, an 
international model. Instead, it is among the worst big city supplies 
in the nation.
    However, it should not be assumed that Washington is the only city 
in the U.S. affected by lead or other important tap water problems. We 
are now learning of lead problems in Northern Virginia, and there are 
several other cities have struggled with lead contamination in recent 
years, including Seattle, communities in greater Boston, St. Paul, 
Minnesota, Bangor, Maine, Madison, Wisconsin, Ridgewood and Newark, New 
Jersey, Oneida, New York, and many others. However, EPA maintains no 
accurate up-to-date national information on this issue. Some of these 
cities will assert that they are now in compliance with EPA's lead 
action level despite recent documented problems, but EPA has done 
little to aggressively ensure that this is correct. School systems in 
many cities across the country including in Seattle, Boston, Baltimore, 
Philadelphia, Montgomery County, Maryland, and many others have found 
serious lead contamination problems, but often have been slow to inform 
parents and resolve the problem. Many school systems have entirely 
failed to comply with the Lead Contamination Control Act of 1988's 
mandate to test school water for lead and replace coolers that serve 
lead-contaminated water. EPA and many states have done a poor job of 
assuring that the EPA lead rule, and the school testing and cooler 
programs are fully implemented. National drinking water databases that 
Congress and EPA rules mandate are incomplete and out of date. EPA has 
acknowledged that there are major problems with state reporting of all 
violations and specific lead levels to EPA, but has failed to crack 
down on states that are not complying with federal reporting rules, 
making effective EPA oversight and enforcement impossible. Moreover, 
the Washington crisis and experience in other cities highlight that the 
EPA lead rule and public education requirements are almost designed to 
be difficult to enforce.
    Among the actions that we believe Congress should take to address 
problems raised by the lead crisis are:

 Water Infrastructure or Grants/Trust Fund Legislation
   Congress should substantially increase the SDW SRF authorization 
        and appropriations (now funded at $850M; authorization of $1B 
        expired in 2003)
   Congress should adopt broad water infrastructure bill and/or water 
        infrastructure trust fund legislation.
   Congress should adopt targeted legislation for lead rule 
        compliance/lead service line replacement and filters for D.C. 
        residents at least, since the federal government approved and 
        oversaw the installation of the lead lines.
   The Corps of Engineers should pay for D.C. lead service line 
        replacement since Corps built the system, and operates the 
        treatment plant that is providing corrosive water. Also, 
        federal agents approved and sometimes required lead lines.
   Congress should adopt new legislation that provides grants to needy 
        water systems, like Reid-Ensign bill (S. 503, 107th Congress).
 Fix Lead Pipe and Fixtures provision in the SDWA
   Congress should redefine ``Lead Free'' in SDWA  1417(d) to mean 
        really lead free (i.e. no lead added, and no more that 0.1 to 
        0.25% incidental lead--as required by L.A., Bangor Maine, etc.)
   Congress should fix the public notice provisions in SDWA  
        1417(a)(2), which clearly have been inadequate (as shown by the 
        D.C. experience)
 Fix the SDWA lead in schools and day care provisions (SDWA  1461-
    1463)
   Congress should redefine lead free in the Lead Contamination 
        Control Act (LCCA), which added SDWA  1461, to mean really 
        lead free (See above)
   Congress should order an EPA review of  1462 implementation and 
        effectiveness of lead fountain recall provision in all states
   Congress should clarify  1461-63 to eliminate any 
        constitutionality doubts raised by Acorn v. Edwards, 81 F.3d 
        1387 (5th Cir. 1996).
   Congress should require ongoing retesting of all schools and day 
        care centers in light of Acorn and widespread non-compliance, 
        and new info on lead leaching.
 Fix the EPA Lead Rule & Associated Regulations
   Adopt a 10 or 15 ppb MCL at the tap. There was an MCL (50 ppb) 
            until 1991.
   As a clearly second-best alternative, the rule needs serious 
        overhaul:
     Require immediate review of corrosion control programs for 
            systems that make treatment changes, and also require 
            review periodically;
     Change monitoring requirements so systems cannot go for years 
            without testing, and to clarify and strengthen test 
            methods, site selection, and number of tests (50 or 100 per 
            city are not enough);
     Strengthen/overhaul public education and public notice 
            requirements in 40 CFR 141.85 which are obviously 
            inadequate;
     Require full lead service line replacement, or at a minimum 
            require that water systems that approved, authorized, or 
            required use of lead service lines to replace those lines 
            if they are contributing to lead over action level;
     Require in-home certified filters to be provided to high-risk 
            people who have high lead levels, with water system-
            supplied maintenance in accordance with 40 CFR 141.100;
     Require an overhaul/upgrade of EPA's compliance & data tracking.
 Fix the Consumer Confidence Report & Right to Know Requirements
   WASA's report said on the cover ``Your Drinking Water is Safe'' and 
        buried the facts. No one knew of the problem. Similar problems 
        have been documented for water systems across the country. 
        EPA's right to know and consumer confidence report rules need 
        to be overhauled & strengthened.
 Fix SDWA Standards Provisions
   Congress should require that standards to protect pregnant women, 
        children, vulnerable people.
   Congress should overhaul the new contaminant selection & six year 
        standard review provisions. These provisions have been complete 
        failures since 1996.
Dropping Drinking Water Enforcement and Poor Violations Tracking
    As is shown in the graphs at the end of this testimony, drinking 
water enforcement, which has never been strong, has seriously dropped 
in the past three years under the Bush Administration. For example, 
regional drinking water inspections have dropped by 50% in those three 
years, and several other key indicators show that drinking water 
enforcement has dropped.
    In addition, the EPA Inspector General recently issued a stinging 
indictment of EPA's and states' failure to adequately track violations 
in the national drinking water database, making adequate EPA oversight 
of drinking water compliance all but impossible. The inspector 
general's report <SUP>2</SUP> cited numerous claims by EPA internal 
reports over the past four years, and more recently in several public 
statements by senior Bush administration EPA officials in 2003 and 
2004, that incorrectly ``portrayed [EPA's] success at improving 
drinking water quality.'' For example, several of the statement 
incorrectly claimed that 94 percent of the U.S. population served by 
community water systems drinks water that meets EPA health standards 
(IG report, p. 3). Rarely were adequate or prominent caveats included 
that would have made clear that these data were well known to 
substantially overstate compliance rates, the IG found. The inspector 
general noted that these incorrect claims were repeated in the media, 
including by a June 23, 2003, New York Times editorial that cited the 
purported improvement in tap water safety (IG report, p. 3).
---------------------------------------------------------------------------
    \2\ EPA Inspector General's Office, ``EPA Claims to Meet Drinking 
Water Quality Goals Despite Persistent Data Quality Shortcomings,'' 
Report 2004-P-0008 (March 5, 2004) available online at http://
www.epa.gov/oig/reports/2004/20040305-2004-P-0008.pdf
---------------------------------------------------------------------------
    Data from both EPA audits and the inspector general show that the 
claimed 94 percent compliance rate is a gross overstatement of the 
actual rate. Although no one knows the precise compliance rate, the 
inspector general found that the EPA is fully aware that these public 
claims substantially overstate actual drinking water compliance. In 
fact, EPA data audits show that about 77 percent of known monitoring 
and reporting violations, and 35 percent of known health standard 
violations, are not included in EPA's compliance database (IG report, 
p. 5). In addition, the inspector general's report pointed out--and EPA 
documents acknowledge--that many of these monitoring and reporting 
violations likely are ``masking'' health standard violations (IG 
report, p. 4). Like EPA's own audits, the inspector general's review of 
data for 761 water systems confirmed substantial underreporting of all 
types of violations (IG report, p.7).
    This data problem makes it all but impossible for EPA to 
effectively oversee and enforce compliance with the SDWA. We strongly 
urge Congress to conduct oversight hearings on this issue, and to 
mandate changes in EPA's and states' data collection, reporting, and 
other programs to remedy these and other problems with the drinking 
water program.

Other Important SDWA Implementation Issues Deserving Congressional 
        Review
    We will not attempt to provide an exhaustive list of all of the 
other issues that Congress should address in reviewing the SDWA, but 
among the most important are:

 Standard Setting. EPA's implementation of the standard setting 
        provisions has been problematic. Standards adopted have not 
        been fully health protective of vulnerable populations. For 
        example, the National Academy of Sciences reviewed EPA's new 
        arsenic in drinking water standard and found that EPA had 
        underestimated by about tenfold the cancer risks posed by 
        arsenic, and therefore had clearly substantially underestimated 
        the benefits of the standard. EPA refused to reduce the 
        standard in response, even though it had set the standard at 10 
        ppb--well above the feasible level of 3 ppb--because it said 
        the benefits of a 3 ppb were inadequate to justify that 
        standard. The entire cost-benefit approach has lead to 
        inaction, weaker standards, and delays. EPA also has missed 
        numerous statutory deadlines in the 1996 Act to set new 
        standards for disinfection byproducts, Cryptosporidium, radon, 
        and groundwater disinfection.
 New Contaminant Selection and Regulation. The 1996 SDWA Amendments 
        eliminated a provision in the statute that required EPA to set 
        25 new standards every 3 years, and replaced it with a measure 
        in section 1412 requiring EPA to decide whether to set 
        standards for five new contaminants every five years. To date, 
        nearly eight years later, EPA has not set a single new 
        standard--or even proposed to start adopting one--under this 
        provision. This despite the presence of some contaminants at 
        risky levels in millions of Americans' tap water. For example, 
        over 20 million Americans drink water that contains the rocket 
        fuel perchlorate at a level in excess of EPA's draft safety 
        level called a Drinking Water Equivalent Level (DWEL), yet EPA 
        has refused to even start the regulatory process for this or 
        any other new contaminant under this provision.
 Six-Year Review. EPA completed its most recent six-year review by 
        ignoring all pleas to update all standards, including 
        suggestions that the drinking water office follow the pesticide 
        office by regulating certain families of pesticides that 
        contaminate drinking water as a class. The only exception is 
        that EPA has said it will consider reviewing the total coliform 
        rule--in 2006, 10 years after the law was enacted. The water 
        industry has advocated for this review.
 Drinking Water Affordability. We believe that a program to assist 
        low-income consumers pay for their water bills, similar to the 
        Low Income Heating and Energy Assistance Program (LIHEAP), 
        should be adopted.
 Right to Know and Right to Understand Requirements. The national 
        experience with consumer confidence reports and other right to 
        know measures in the SDWA has taught us that these provisions 
        need to be substantially strengthened and enhanced with 
        measures that require more outreach and public education.
 National Contaminant Occurrence Database (NCOD). The requirement in 
        section 1445(d) that EPA establish a national database for 
        public use on the occurrence of regulated and unregulated 
        contaminants in their drinking water has fallen far short of 
        the mark. The NCOD established so far is a patchwork of data 
        that is so incomplete that it is virtually impossible for EPA 
        and citizens to use to get comprehensive or up-to-date 
        information on local or national drinking water.
 Source Water Protection. The SDWA programs for source water 
        protection have been a bitter disappointment. The law should be 
        overhauled to require strong, enforceable source water 
        protection measures for both groundwater and surface water.
 Drinking Water Security. Although the Bioterrorism law required 
        vulnerability assessments for many drinking water systems, much 
        more needs to be done to both strengthen and implement the 
        security status of drinking water supplies. The public needs to 
        be brought into the process to assist water utilities to 
        educate consumers about what to do in the event of a problem or 
        observed suspicious activity, and to have the opportunity to 
        recommend steps that could better protect their communities 
        through the adoption of inherently safer technologies. While of 
        course public involvement in some aspects of this program will 
        of necessity be limited, we believe that the public should have 
        a place at the table in the efforts to improve protection of 
        their water supplies.
 Polluter Pay Provisions. We believe that the SDWA should be amended 
        to make it clear that polluters who contaminate drinking water 
        supplies must pay to clean up those supplies--rather than 
        forcing consumers to foot the bill.
 Bottled Water and Filter Protections and Right to Know. Strong 
        measures are needed in the SDWA to require bottled water 
        companies to fully disclose contaminants found in their water 
        on the labels, to improve monitoring, regulation, and 
        oversight. and to expand right to know requirements. In 
        addition, we need objective national standards, testing, 
        certification, and right to know requirements for home filters.
 Waterborne Disease Surveillance and Health Tracking. There should be 
        a national mandatory program for waterborne disease 
        surveillance and health tracking, with adequate funding.
 Water Infrastructure, and Public Control of Water Assets. As noted 
        earlier in this testimony, we strongly believe that 
        comprehensive water infrastructure legislation, that helps with 
        significant additional funding to refurbish and upgrade our 
        drinking water treatment and distribution systems, consistent 
        with smart growth and water conservation principles, is 
        urgently needed. Inherent in any legislation should be the 
        important concept that the public must maintain full control of 
        all water assets.

                               CONCLUSION

    NRDC supports reauthorization and full funding for the New York 
Watershed protection program. We believe that such reauthorization and 
funding should be part of the comprehensive review and reauthorization 
of the SDWA.

[GRAPHIC] [TIFF OMITTED] T3305.001

[GRAPHIC] [TIFF OMITTED] T3305.002

[GRAPHIC] [TIFF OMITTED] T3305.003

[GRAPHIC] [TIFF OMITTED] T3305.004

[GRAPHIC] [TIFF OMITTED] T3305.005

    Mr. Gillmor. Thank you very much, Mr. Olson.
    Are there questions of this panel?
    Gentlelady from Illinois?
    Ms. Schakowsky. I will yield.
    Ms. Solis. Thank you, Mr. Chairman.
    I have a question for Mr. Mugdan. I would like to ask you, 
why didn't President Bush include in his fiscal year 2005 
budget for the Safe Drinking Water Program, why did it not 
include any funding for section 1443(d), the New York Watershed 
Demonstration Project?
    Mr. Mugdan. Congresswoman, I am here as a regional witness. 
My expertise is in discussing EPA's role in protecting New York 
City's drinking water supply, and therefore, my testimony 
focuses on the issues associated with implementation of our 
filtration avoidance determination.
    To date, the Administration has not taken the position on 
this bill H.R. 2771. And as you have heard, no Administration 
has requested funding under this provision of the Safe Drinking 
Water Act. That is probably the most information I can provide 
you.
    Ms. Solis. Why have they not taken a position? Why has the 
Administration not taken a position?
    Mr. Mugdan. That is beyond my area of expertise.
    My expertise is with respect to implementing the Safe 
Drinking Water Act on the ground in our region of the country.
    Ms. Solis. Is this more important than reauthorizing the 
State Revolving Loan Fund, Section 1452, yes or no?
    Mr. Mugdan. I wouldn't be the right person to give you that 
answer. I am sorry.
    Ms. Solis. Mr. Mugdan, are you saying that reauthorizing 
section 1443(d) to provide financial assistance to the New York 
watershed is more important than any other higher priority, 
than reauthorizing the other 13 provisions of the Safe Drinking 
Water Act?
    Mr. Mugdan. I am not making any statement about the 
relative priorities.
    Ms. Solis. I have no more questions.
    Mr. Gillmor. Are there any other questions?
    Gentlelady from Illinois?
    Mr. Buyer?
    Mr. Buyer.  I just have one question. When you walked into 
this room today, you brought with you your intellect and your 
common sense, did you not?
    Mr. Mugdan. Yes, sir.
    Mr. Buyer. Everybody agree in the affirmative? They all 
nodded their head in the affirmative.
    Based on your intellect and your common sense, let us 
exercise it. Is there any rational basis that Congress should 
only authorize this program for 1 year?
    Ms. Crotty. I would say, no. I think the watershed 
agreement represents everything that Congress is trying to see 
happen at the State and local level, that it is a partnership 
of very diverse groups that came together and hammered out 
literally centuries of animosity toward a new way of protecting 
an unfiltered and a filtered drinking water supply that 
includes multiple barriers to protecting people's drinking 
water.
    I think when we originally sought the authorization back in 
1996, we thought 7 years was a good amount of time, because we 
really did have a 5-year review period built into the original 
agreement to make sure that we were doing the right thing, if 
you will.
    So I think a 1-year authorization, while we would 
appreciate Congress taking note of the tremendous effort of the 
watershed agreement, obviously, we have proven that it is 
working. And so a longer authorization, I think, is much more 
appropriate.
    Mr. Buyer. Does everyone agree with that statement?
    Mr. Rosa. Yes.
    Mr. Buyer. All nodded in the affirmative.
    Mrs. Capps. Could my colleague yield?
    Mr. Buyer. I yield back.
    Mr. Gillmor. Gentlelady from Illinois?
    And we do have a vote on and we are running short on time 
and if you could do it as briefly as possible.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Ms. Crotty, has the Governor submitted the 5-year report 
that is required by Congress?
    Ms. Crotty. Yes, we did.
    Ms. Schakowsky. When was that?
    Ms. Crotty. I transmitted that report on March 31.
    Ms. Schakowsky. That report was 2 years overdue, am I 
correct?
    Ms. Crotty. Actually, the legislation that required the 5-
year report--and with all due respect, not trying to be cute 
about this--it says that the State needs to transmit a report 
to Congress about the progress of the watershed 5 years after 
we receive the money from the Administrator. And so actually, 
the timing is right on in terms of when we initially received 
the money from EPA.
    Ms. Schakowsky. Thank you.
    Mr. Gillmor. Let me ask if the panel would be willing to 
answer some questions in writing if Members have some.
    And also, I would like to dismiss this panel if we can, but 
if there are further questions that Members need to ask, we 
can.
    Gentlelady from California?
    Mrs. Capps. I want to make one comment that was actually in 
response to what our colleague from Indiana imposed in terms of 
his asking about common sense and is there any reason we would 
just ask for authorization for 1 year, but I wanted to ask him, 
on what basis he thought the Senate requested a 1-year 
authorization and Senator Inhofe led that recommendation?
    And I guess that would be my question. There is not time to 
get an answer because I think there is a vote we need to tend 
to, but this makes it difficult when one side recommends one 
timeframe and another chamber recommends a very different 
timeframe.
    I yield back.
    Mr. Gillmor. I might be able to answer. Senator Clinton 
offered the amendment, but the chairman of the committee said 
that he was committed to working for a longer reauthorization 
for the program next year. Beyond that, I can't explain 
anything that the Senate does.
    Mrs. Capps. Is it correct that it voted out the 1-year?
    Mr. Gillmor. Yes, out of the committee. That is my 
understanding.
    Is there any objection to dismissing this panel?
    If not, thank you all very much.
    I would ask the Members, we will reconvene 5 minutes after 
the last vote in the series.
    [Whereupon, at 11 a.m., the subcommittee proceeded to other 
business.]


</pre></body></html>
